<html>
<title> - THE CONGO BASIN FOREST PARTNERSHIP</title>
<body><pre>[Senate Hearing 108-246]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-246

                   THE CONGO BASIN FOREST PARTNERSHIP

=======================================================================

                                HEARING



                               BEFORE THE



                    SUBCOMMITTEE ON AFRICAN AFFAIRS



                                 OF THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED EIGHTH CONGRESS



                             FIRST SESSION



                               __________

                             JULY 24, 2003

                               __________



       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



91-136              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                  LAMAR ALEXANDER, Tennessee, Chairman

SAM BROWNBACK, Kansas                RUSSELL D. FEINGOLD, Wisconsin
NORM COLEMAN, Minnesota              CHRISTOPHER J. DODD, Connecticut
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Alexander, Hon. Lamar, U.S. Senator from Tennessee, opening 
  statement......................................................     1
Brown, Keith, Senior Deputy Assistant Administrator, Bureau for 
  Africa, U.S. Agency for International Development..............    16
    Prepared statement...........................................    19
Fay, J. Michael, Ph.D., Conservation Biologist, Wilderness 
  Conservation Society...........................................    25
    Prepared statement...........................................    29
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, opening 
  statement......................................................     3
Kansteiner, Walter H., III, Assistant Secretary of State for 
  African Affairs................................................     8
    Prepared statement...........................................    10
Mokombo, Tony, Senior Program Officer, West and Central Africa 
  and Madagascar Endangered Species Program, World Wildlife Fund.    33
    Prepared statement...........................................    37
Turner, John, Assistant Secretary of State for Oceans, 
  International Environmental and Scientific Affairs.............    12
    Prepared statement...........................................    14

              Additional Material Submitted for the Record

Statement Submitted by the Zoological Society of Milwaukee.......     3
Statement Submitted by Sally Jewell Coxe, president of the Bonobo 
  Conservation Initiative........................................     6

                                 (iii)

  

 
                   THE CONGO BASIN FOREST PARTNERSHIP

                              ----------                              


                        Thursday, July 24, 2003

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 9:34 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Lamar 
Alexander [chairman] presiding.
    Present: Senators Alexander [presiding] and Feingold.

           OPENING STATEMENT OF HON. LAMAR ALEXANDER,
                  U.S. SENATOR FROM TENNESSEE

    Senator Alexander.  Now I would like to invite the first 
panel for our hearing on the Congo Basin to come forward. While 
they come, I am going to begin my opening statement, and then 
we will go to Senator Feingold for his opening statement. Then 
we will hear from the panel. But I will introduce the witnesses 
in just a moment.
    The Congo Basin is home to the second largest contiguous 
tropical forest in the world. Only the Amazon is larger. It 
extends over 700,000 square miles, into six African countries. 
It contains the most diverse grouping of plants and animals in 
Africa, including rare and endangered species such as the 
eastern lowland gorilla and the mountain gorilla, the 
chimpanzee and the white rhino.
    Today's hearing on the Congo Basin Forest Partnership will 
focus on how the United States, in cooperation with other 
governments and nongovernmental organizations, can help 
preserve this ecological treasure in the heart of Africa and 
help African countries develop institutions that they need to 
grow and prosper.
    Almost a year ago, in September of 2002, Secretary Powell 
announced the creation of the Congo Basin Forest Partnership. 
The United States also pledged $53 million over the next 3 
years toward this effort. The partnership's mission is to 
promote economic development, alleviate poverty, and improve 
local governance through natural resource conservation 
programs.
    I am very excited about this mission, because it recognizes 
the larger economic and social value of effective conservation 
programs. By helping African nations in the Congo Basin 
establish strong national parks, we can also help them build 
institutions and communities around those parks. A national 
park that preserves a major habitat is more than a way to 
protect wildlife. It becomes a focal point for economic 
development. Local communities take greater pride in their 
home, and institutions are built that not only protect the park 
but enhance the ability of local government to be more
effective.
    I grew up hiking on the trails of the Great Smoky Mountain 
National Park and live about 2 miles from its boundary, and 
that has certainly been our experience in Tennessee. The park 
is so important to the local economy that the Pigeon Forge 
Chamber of Commerce is actively advocating for more stringent 
environmental regulation to preserve air quality in the park. 
They recognize that environmental preservation is critical to 
creating jobs in the area.
    Those of us from the Smoky Mountains take great pride in 
that park. It is a part of who we are. It is my hope that 
African countries, especially the communities surrounding new 
national parks, will come to recognize the same thing.
    The Congo Basin Forest Partnership aims to protect 11 key 
landscapes spanning six countries in Central Africa. Many of 
these landscapes encompass multiple national parks and 
thousands of square miles. This is not a small, simple project. 
It is a major undertaking. If conservation efforts in the Congo 
Basin are to be done well, they will take considerable 
resources, time and effort, and commitment from both the 
international community and from the participating African 
governments.
    Gabon took a giant step forward in this regard by 
designating 12 new national parks within its borders. Other 
countries' national parks are also encompassed by the 
landscapes designated by the partnership. I hope now that we 
see a high level of commitment to follow-through by the 
participating African governments.
    It is not easy to maintain and preserve a national park, as 
our own Park Service can tell you. The Great Smokies Park, for 
example, has an annual budget of $15.3 million and that leaves 
a maintenance backlog of an additional $8 million every year, 
and that is just one park. If the Congo Basin Forest 
Partnership succeeds, it will establish a network of 30 or more 
such parks. While costs are certainly lower in Africa than in 
the United States, the resources required for this effort are 
substantial.
    Today we will look at why this new effort at conservation 
in the Congo Basin is so important, how it is proceeding so 
far, and what needs to happen in the future to ensure its 
success. To do this, we have an outstanding panel of experts 
from bothe the administration and the environmental community.
    But first, I would like to recognize my colleague from 
Wisconsin, Senator Feingold, for his opening statement. I 
should note that Senator Feingold has worked tirelessly to 
include the Milwaukee Zoo in this hearing. They have been 
involved for years in preserving bonobos--is that the way it is 
pronounced? Is it ``bon-NOE-boe'' or ``bonn-a-boe.''
    Senator Feingold.  You are the chairman.
    Senator Alexander.  ``Bon-NOE-boe?'' We had a discussion on 
the bonobos, a type of African ape in the Congo; it would have 
provided a great perspective for the committee.
    Senator Feingold.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold.  Thank you, Mr. Chairman. And it is a 
wonderful zoo, by the way, one of the best.
    I thank the chairman for calling this hearing and thank all 
the witnesses for being here today. Today this subcommittee 
will focus on the Congo Basin Forest Partnership Initiative, a 
multilateral effort that is slated to receive some $53 million 
in U.S. Government support over the next 3 years. I know that 
Chairman Alexander has a strong interest in conservation issues 
and I commend him for the seriousness with which he is 
approaching the subcommittee's oversight responsibilities in 
this important area.
    Certainly there is much to be gained, not just for Central 
Africa, not just for the United States, but for humanity, in 
protecting the diversity and majesty of the Congo Basin.
    I also want to make plain that no one should interpret this 
hearing today as some sort of statement about the totality of 
the subcommittee's interest in the Central African region. I am 
so pleased that Senator Alexander and I have been able to work 
together in communicating this subcommittee's urgent concerns 
about the crisis in Ituri to the administration. Of course, 
those of us following African issues in the Congress have many 
ongoing concerns about the horrific ongoing abuses in that 
region and in the Kivu regions of the eastern Democratic 
Republic of the Congo (DRC), about the precarious situation in 
Burundi, and about overall regional instability and security. 
Millions of lives are at stake, and these issues certainly 
cannot and will not be sidelined.
    As the Chairman indicated, I had hoped that the Zoological 
Society of Milwaukee (ZSM) would be able to be with us today, 
but due to a scheduling conflict their conservation coordinator 
was not able to be here. However, ZSM has prepared written 
testimony, and I ask that it be entered into the record, Mr. 
Chairman.
    Senator Alexander.  It will be entered.

    [The information referred to follows:]

       Statement Submitted by the Zoological Society of Milwaukee

    On behalf of the Zoological Society of Milwaukee, I gratefully 
accept the invitation by Senator Feingold to provide testimony 
regarding our organization's experience with and the effects of the 
Congo Basin Forest Partnership (CBFP) on our work in the Democratic 
Republic of Congo (DRC). The following account is a summary of our 
program and an overview of broad events that characterize our 
experience with the CBFP to date. I regret not being able to deliver 
testimony in person and supply any information that the Congressional 
committees may find useful, but I respectfully submit this report to 
the Senator's office while attending a conservation conference in 
Japan.
    Please let it be understood that it is our intention to acknowledge 
the huge need for funding to help conserve the natural resources and 
heritage of central Africa. It is without question that the CBFP has 
the potential to help slow the destruction of the region's last 
remaining tropical forests and the animal species that perpetuate them. 
The Zoological Society of Milwaukee wishes to express its appreciation 
to those who have helped to forge this partnership and make funds 
available in the ultimate hope that lasting conservation is achieved. 
We provide the perspective of a non-CARPE organization that has active 
programs on the ground in the Democratic Republic of Congo, and we 
offer testimony in order to provide constructive dialogue for the 
modeling of large-scale funding initiatives.
Background
    The Zoological Society of Milwaukee (ZSM) began conservation work 
in the Democratic Republic of Congo in 1997 when it formally signed an 
agreement with the Congo's government authority overseeing national 
parks, the Institut Congolais pour la Conservation de la Nature (ICCN). 
Specifically, the agreement authorized ZSM to conduct conservation 
research and support activities in the Salonga National Park, one of 
the 11 landscapes now targeted by the CBFP. The focus of ZSM's interest 
is the pygmy chimpanzee or the bonobo (Pan paniscus), a highly 
endangered chimpanzee species that is endemic to the Congo. The Salonga 
National Park is the only federally protected area for the bonobo, and 
despite the fact that the park had been originally created to protect 
this species, it was not known whether the species existed there or 
occurred in sufficient numbers to be self-sustaining. The Salonga is a 
vast tropical forest park, larger than the size of the state of 
Maryland, but because of its remoteness, the Salonga remained virtually 
unknown to the international scientific and conservation community. 
ZSM's objectives were to initiate a regional survey of the bonobo and 
other large mammals in the park in order to
determine their distribution and abundance and identify specific 
threats to their
survival.
    Thus, in November 1997 in partnership with ICCN, ZSM launched an 
exploratory mission to the Salonga in search of the bonobo. The pilot 
study was the first of its kind to document the bonobo's presence in 
the park and to provide quantitative evidence to justify a large-scale 
survey and follow-up conservation efforts for this great ape. Shortly 
after this exploratory mission, ZSM began a major fund-raising campaign 
to invest up to $235,000 (mostly from private sources) in a more 
extensive survey that would begin in 1998 and take approximately 18 
months to complete. Tragically, however, civil war broke out in Congo 
in August 1998, and all fieldwork was suspended. Despite the war, ZSM 
continued to raise funds in order to resume survey work as soon as 
peaceful conditions returned. Moreover, ZSM maintained its presence in 
the Congo during the war and continued to invest in ancillary 
conservation work, such as the production of environmental educational 
materials and the provision of emergency support to the Salonga park 
guards.
    Then in October 2000, with a cessation in combat and the help of 
the UN peacekeeping forces, ZSM returned to the Salonga to resume its 
survey work. While conditions were not suitable to mount a large-scale 
survey (due to the lack of transport, fuel and occasional security 
concerns), ZSM continued to lay the groundwork by conducting pilot 
surveys in various locations throughout the park. In a span of two 
years from October 2000 to October 2002, ZSM made five missions into 
Salonga and explored 11 sites in order to get a broad overview of the 
park and identify priority regions for survey in early 2003. 
Preparations for peace and the withdrawal of foreign troops did not 
begin in earnest until late 2001 to early 2002.
    In addition to carrying out sites surveys, at the request of the 
United Nations Foundation and UNESCO, ZSM agreed to deliver salary 
funds to the park guards as part of the UNF/UNESCO program to support 
World Heritage Sites in Danger (titled: Protecting World Heritage Sites 
During Times of Armed Conflict in the Democratic Republic of Congo). 
With support from USAID (Kinshasa Mission), guard payments were 
combined with research excursions so that urgently needed support for 
Salonga could proceed in tandem with scientific investigations.
Advent of CBFP
    ZSM became aware of the CBFP in the fall of 2002 from press 
releases. While attending an international meeting in Kinshasa in 
October 2002 on behalf of the UNESCO program, ZSM and other 
organizations heard about the CBFP initiative, but no details were 
provided. The essence of the information was that the U.S. government 
had awarded a grant of up to $53 million for 11 ``landscapes'' (as they 
were referred to) in the Congo Basin countries. The UNESCO program was 
already giving financial assistance to at least two of the landscapes 
in DRC, namely, the Salonga and the Kahuzi Biega National Parks. 
Additionally, the distribution of funds was to be allocated, not by 
using an open granting mechanism inviting qualifying NGO's, but by 
designating three organizations to administer the funds: World Wildlife 
Fund, Wildlife Conservation Society, and Conservation International. At 
this point neither of these organizations had worked in Salonga. 
Inquiring further at the USAID offices in Kinshasa about the program, 
it was explained that the CBFP was in the process of being shaped, that 
little had been decided as to how the partnership would work among the 
lead organizations.
    ZSM's chief concerns, since we had on-going programs in the Salonga 
landscape, were: how would our work be affected, would we be 
integrated, or would we find ourselves in competition? Additionally, 
were there funding opportunities for us, and if so, what was the 
mechanism to apply for these funds? From ZSM's perspective, there was 
little information about the development of the CBFP, and ZSM had not 
been asked to supply information regarding Salonga or our on-going work 
in Salonga.
    A meeting with USAID and potential participants was held in 
Kinshasa in March 2003 to decide on the operational mechanisms and to 
inform potential sub-partners. Unfortunately, however, ZSM received an 
invitation only very shortly before the Kinshasa meeting took place, 
and we were not permitted to send our Congolese government homologue as 
it was explained that due to resource limitations to provide travel 
funds, source-country government representatives could not attend. 
Thus, ZSM had neither representation nor opportunity to gather 
information.
    One month later, in April 2003, ZSM met with officials in the USAID 
office in Kinshasa and with Dr. John Flynn, the director for the CBFP 
(under USAID's Central African Regional Program for the Environment--
CARPE). Dr. Flynn very kindly explained how the CBFP mechanism had 
evolved to date (any mistakes in the following account are mine): That 
is, that the three (in one case, four) instigating organizations would 
submit proposals to USAID to request themselves as the ``lead'' 
administrators for the landscape. USAID would judge proposals based on 
established criteria such as the applicant's knowledge of the 
landscape, its ability to collaboratively develop a work plan, garner 
matching funds, and line up specialized sub-contractees to implement 
programs on the ground. He explained that if ZSM were to be integrated 
into this program that it would have to develop a relationship with the 
lead organizations. Who would be the lead for Salonga? This had yet to 
be determined. Furthermore, the source of funding that ZSM had 
previously received from USAID via the Kinshasa mission to help defray 
costs related to delivering park guard salaries would no longer exist--
all the funds for the environment would now be channeled through the 
developing CBFP mechanism. Therefore, ZSM could not simply renew an 
existing grant, but we would have to reapply to the lead, non-
government CBFP organization, as yet undesignated, and with which we 
may have been placed in a competitive situation.
    From ZSM's perspective, there was no mechanism to respect existing 
on-going work, and it appeared to be up to the ``lead'' CBFP 
organization to collaborate with organizations of their choice. Unless 
USAID adopted a critical review process, there would be only an 
assumption that lead organizations exercise integrity, goodwill, and 
fairness.
Results
    ZSM has witnessed a destabilizing effect with the central 
government. ICCN has recently issued a memo to members of CARPE/CBFP 
and to its existing partners asking for coordination of programs 
through their central authority and reminding organizations of the need 
to respect the contractual procedure of ICCN before claiming to 
undertake projects in DRC protected areas and the need to respect 
existing ICCN contracts.
    Nevertheless, the reality is that small NGO's like ZSM, whether or 
not they wish to receive USAID funding, may have to either forfeit or 
alter their programs to fit under a new framework that has been imposed 
by the CBFP.
    During the evolution of the CBFP, certain programs of ZSM's have 
been assumed by contending lead organizations, such as the large mammal 
survey. Consequently, ZSM will have to redirect existing resources and 
develop a complementary niche rather than duplicate what will be called 
for under the federally funded CBFP work plan. This point impacts 
private funding that ZSM has been successful in procuring.
    ZSM has sought out and developed a relationship with one of 
Salonga's lead organizations. Pending USAID final approval, Salonga 
might be jointly managed by two organizations: WWF and WCS. Neither of 
these organizations has had a long-term presence in Salonga. However, 
during the process of these two organizations working out their 
respective roles, WWF has invited ZSM to state its interests in 
collaboration by contributing to the USAID proposal, submitting 
budgetary needs, and outlining its financial cost-share capacity.
    The benefit that ZSM will derive from the CBFP is the sharing of 
responsibilities with organizations that possess the administrative 
capacity to build and develop the infrastructure of the park and to 
support the park staff.
    The benefits of the CBFP to the Congo Basin will be that the--

  <bullet> Simultaneous financing and cohesive planning under the CBFP 
        for protected area support across a region should allow for 
        cross fostering and resource sharing among conservation groups; 
        and

  <bullet> The leadership of the Congo Basin countries will have a 
        unifying and common objective.

    Even though the program's initial structure may have been 
inherently flawed (in that its creation was non-inclusive, and because 
it provides much power and resources to a limited field), there are 
just reasons for undertaking bold funding measures to preserve forest 
lands in central Africa. As of May 2003, ZSM has been reassured by the 
USAID Kinshasa Mission and by Ambassador Aubrey Hooks that every 
measure will be taken to ensure that proper, legal and ethical 
protocols will be in place to administer the CBFP award. Based on ZSM's 
relationship with and respect for these two offices, we conclude that 
there will ultimately be much good to come from this program. At the 
very least, these landscapes need a significant infusion of 
international funds if they are to survive and benefit humankind.
Recommendations for future initiatives
  <bullet> Acknowledge and include existing organizations and programs 
        much earlier in the award development.

  <bullet> Avoid granting sole authority to three highly expert but 
        highly competitive and bureaucratic organizations; create a 
        process of review, verification and evaluation using an 
        objective, diverse, non-government panel.

  <bullet> Develop basic criteria whereby lead organizations choose and 
        select credible sub-contracting organizations.

  <bullet> Before submission of proposals for leadership and before 
        selection of sub-partners, work plans should be devised with 
        the input and provisional approval by the host country 
        government authority.

Respectfully submitted, July 21, 2003,

Gay E. Reinartz, Ph.D.
Conservation Coordinator,
Zoological Society of Milwaukee

   Statement Submitted by Sally Jewell Coxe, President of the Bonobo 
                        Conservation Initiative

                   the congo basin forest partnership
    Mr. Chairman and distinguished members of the Subcommittee, thank 
you for the opportunity to share our views. The Congo Basin Forest 
Partnership is an historic and timely initiative that has the potential 
to make a lasting impact on the future of this extremely important 
cradle of biodiversity on the planet. It is an honor to be involved as 
an active participant in the shaping and implementation of this 
important, collaborative effort.
    The Bonobo Conservation Initiative is dedicated to the preservation 
of the bonobo (Pan paniscus), a rare and little known species of great 
ape, found only in the central Congo Basin in the Democratic Republic 
of Congo (DRC). Most people have not heard of bonobos, yet they are 
humankind's closest primate relatives along with chimpanzees. Dubbed 
the ``make love, not war'' apes, bonobos exhibit a peaceful, 
matriarchal society, based on sharing and cooperation. They have great 
power to serve as a flagship species, both for conservation and peace.
    Bonobos are highly endangered; fewer than 5,000 may survive. There 
is an urgent need for a unified conservation effort focused on this 
species. Bonobos occupy some of the most important areas of 
biodiversity within the Congo Basin. Three out
of the eleven ``priority landscapes'' identified by the CBFP encompass 
the bonobo
habitat.
    The Democratic Republic of Congo, the only home of the bonobo, is a 
vast, resource-rich nation the size of western Europe, which is just 
emerging from six years of civil war and foreign occupation. This war 
has taken the lives of approximately 3 million people--the greatest 
death toll from any war since WWII--and the primary cause of the 
conflict has been competition over illegal exploitation of natural 
resources.
    Peace in the region is essential to the ethical and wise management 
of natural resources, and by the same token, programs which promote 
conservation and natural resource management are integral to promoting 
and maintaining peace.
    If implemented with cultural sensitivity, the Congo Basin Forest 
Partnership can make a strong and positive impact for peace, stability, 
and improved quality of life for the citizens of the DRC. We hope that 
the U.S. government will concomitantly strengthen its support for peace 
process and reconstruction in the DRC, which will influence the entire 
region.
    In all of our conservation programs in the DRC, the Bonobo 
Conservation Initiative recognizes the inextricability of humanitarian 
and livelihood concerns with conservation. We cannot successfully 
address biodiversity protection without dealing with and working with 
the citizens of the Congo. Conservation programs must benefit and 
empower the people to manage their resources effectively, and it is for 
this reason that BCI is actively developing partnerships and programs 
which address health, conflict resolution, and livelihood concerns. We 
are working closely with the national leadership of the DRC, as well as 
on the grassroots level with local communities. Leveraging the 
investment in the CBFP, by partnering with other U.S. government-
supported initiatives for health, democracy and governance, and 
sustainable development will be a key to achieving real and lasting 
results.
    While it has been noted that the CBFP will initiate extremely 
important work on the ground, both the amount of funding allocated and 
the brief, 3-year duration of the program as currently envisioned, will 
be insufficient to achieve the goals. Increased U.S. commitment is 
needed, and further support from other nations must be encouraged and 
coordinated with the partnership.
    BCI has found that even with the small amount of resources that it 
has been able to direct to the DR Congo in the past few years, that the 
results have been profound, most noticeably in the responses of the 
Congolese people with whom we have worked and spoken, and the emergence 
of the broad network of allies around the world who are committed to 
help in securing a sustainable future for the people of the Congo and 
their land, and for the biodiversity of that critically important part 
of the Earth.
    With support from the Great Ape Conservation Fund administered 
through the U.S. Fish & Wildlife Service, BCI has discovered new groups 
of bonobos in two strategic areas and we are now working with the local 
people to create new community-based reserves, and related sustainable 
development programs. This is part of a larger goal to establish a 
multi-zoned ``Bonobo Peace Forest,'' comprising a linked constellation 
of community-based reserves in a landscape of sustainable development 
and wise resource management. As it has with the small amount made 
available to support the USFWS administered funds established by the 
Great Ape Conservation Act and the African Elephant Act, the U.S. 
government can achieve much of great significance and lasting value 
through the CBFP.
    The government of Australia is actively initiating a similar 
program of financial support for in-situ great ape conservation through 
the UNEP ``Great Ape Survival Program.'' Perhaps this forward momentum 
can be built upon to include and strengthen Australia's participation 
in the CBFP.
    The U.S. government can act as a model, precedent, and catalyst for 
comparable action by other Western governments, and to reinforce action 
by international organizations and alliances, such as the UN and the 
EU, to benefit the Congo, its forests and its people, and thus, the 
world.
    We have seen the disastrous results of inattention and it is time 
to increase the exportation of the best that America has to offer: our 
optimism, our knowledge and pragmatic approach to innovative problem 
solving, our commitment to the rule of law and to government for, of, 
and by the people. After suffering years of hardship, deprivation, war, 
and exploitation, the Congolese people and the new transitional 
government led by President Joseph Kabila are showing an honest and 
transparent desire for allies and support for doing the right thing.
    Well over one hundred years ago, the U.S.A. created the world's 
first national park. Fifty years later, the first national park in 
Africa was created in the Congo, in large part due to an American, Carl 
Akeley. It is appropriate that now, in the 21st century, the U.S.A. 
again take the lead in securing the resources of the Congo for the 
people of the Congo, by working with them, by working to ensure that 
they are given a fair hearing both locally and internationally, so that 
they can be the partners they must be if the Congo Basin is to remain a 
viable place both for people and the wondrous spectrum of fauna and 
flora within it.
    Thank you again for the opportunity to contribute our voice and 
that of our Congolese partners to the record.

    Senator Feingold. I believe it provides a very helpful 
perspective from a small organization that was working in the 
area before the partnership was launched and is now adjusting 
to both the changes and the opportunities that this new 
endeavor has to offer.
    So thank you, Mr. Chairman. I look forward to learning more 
about the Congo Basin Forest Partnership today. I will stay 
here as long as I possibly can. I am in the role of ranking 
member with regard to issues on the Judiciary Committee, where 
there may be a markup. So if I leave it is only for that 
reason, not out of a lack of interest in this, because I am 
very interested in it.
    Thank you, Mr. Chairman.
    Senator Alexander.  The Judiciary Committee is--I 
understand why you have to leave for that, and I will not say 
anything about the Judiciary Committee.
    We are delighted with the witnesses we have today. Let me 
introduce the first panel. We have a second panel. I would like 
to make this suggestion. We ask you to--we will certainly take 
your written statement and make it a part of the record. If you 
could summarize your remarks in ten minutes or less, that would 
give us a little more time for questions and conversations, 
especially while Senator Feingold may be here. But we want to 
hear you say whatever you have to say.
    The Assistant Secretary of State for African Affairs is 
here, Mr. Walter Kansteiner. We have met on more than one 
occasion and I am grateful for that. He brought to my attention 
the Congo Forest, Congo Basin Forest Partnership, shortly after 
I became chairman of the subcommittee. So welcome, Walter. We 
are glad you are here.
    John Turner has been long active in conservation affairs in 
this country. He was President and CEO of the Conservation 
Fund, which is where I guess I have gotten to know him before, 
and he shares my passion for national parks, except he likes 
the ones in the West the way I like the ones in the East. We 
like them both, I guess.
    Mr. Keith Brown, Senior Deputy Assistant Administrator for 
Africa in USAID. He is stepping in for Connie Newman, who could 
not be here today. But even more important than that, he is 
from Memphis, Tennessee, and we are very proud of Mr. Brown.
    Thanks to the three of you for coming, and we will start 
with you, Mr. Secretary, with your testimony, and then go to 
Mr. Turner and Mr. Brown. Then we will go to questions.

 STATEMENT OF WALTER H. KANSTEINER III, ASSISTANT SECRETARY OF 
                   STATE FOR AFRICAN AFFAIRS

    Mr. Kansteiner. Thank you, Mr. Chairman, very much. Growing 
up in the North Shore of Chicago, I had the privilege to visit 
the Milwaukee Zoo and have fond memories of it. And also, 
spending my summers in western North Carolina, I too hiked the 
Smoky Mountains and paddled the rivers of Pisgah National 
Forest and perhaps really gained my love for the out of doors 
in that Tennessee-North Carolina area.
    We do have a wonderful collegial team that works together 
on this thing called the Congo Basin Forest Partnership. John 
Turner brings tremendous experience, and so I will keep my 
remarks brief. Keith Brown has a great handle on exactly how we 
are rolling this program out and how we are keeping it on 
track. So I will be brief.
    Senator Feingold, I heard you on the Ituri and the Kivus 
and I share your concern there. You might note that the UN 
Security Council will vote shortly on MONUC (United Nations 
Organization Mission in the Democratic Republic of Congo) troop 
mandate increase. So I think that is a very good sign. I know 
we worked together on that and I appreciate your support on 
that.
    Senator Alexander.  Thank you for that, Mr. Secretary. 
Senator Feingold, thank you for saying that earlier. 
Interesting to me, if I may interrupt, Ambassador Negroponte 
told me in a recent visit that 60 percent of the business of 
the UN Security Council is Africa today.
    Mr. Kansteiner. Exactly. Thank you.
    Conserving the Congo Basin Forest is a priority and a 
passion that all of us on this panel have, and I am proud to 
say that Secretary of State Colin Powell shares as well. He 
fondly recalls often his time in Gabon in the rain forest, 
where Mike Fay, who is the real expert who is going to testify 
after us here, showed us through the coastal rain forest of 
Gabon and all the fantastic botany and potential wildlife that 
is there.
    Unfortunately, as the Secretary of State reminds us, his 
security detail, which included numerous helicopters, boats, 
and everything else, scared every single animal away long 
before we got there. So we made an effort, but he did in fact 
see the fantastic environment that still remains in Gabon and 
throughout the whole Congo Basin.
    After we took that trek with Mike Fay, we returned to 
beach-side roundtable discussions with the NGO community. John 
Turner was there, and it was with great pride that Colin Powell 
said, after listening to the conservationists that are working 
this issue day and night, ``From this day forward, I am a 
conservationist for Africa and always will be.'' So we took 
that as a great success, and Secretary Powell has been a 
tremendous supporter of, and advocate for, all the programs 
that we pursue.
    As you mentioned, Mr. Chairman, the Congo Basin is the 
second largest lung of the world, that is rain forest, that 
provides the world the oxygen that we need. It is a global 
lung, and we have to recognize it as such, and we have to work 
together with our African partners to preserve it. It is a 
treasure house that has tremendous biodiversity, that has 
unbelievable potential, not only for the people that live 
there, and that is very important. These people have to be able 
to tap in to that potential in a responsible and sustainable 
way.
    But it also holds treasures for the world. We do not even 
fully know the biodiversity that is there. So it is exciting to 
protect it. Because it is a unique ecosystem, it is also 
exciting to protect for the next generation and generations to 
follow.
    It needs good governance. It needs governance in the area 
that will recognize it and prioritize it and in fact protect 
it. I will never forget sitting in President Bongo's office 
with Mike Fay and John Turner going through some of the 
fantastic photographs that Mike Fay and his partners from 
National Geographic took of the Congo Basin Forest--brilliant 
animal shots, but also fantastic flora and fauna, and 
unbelievable rain forests.
    President Bongo was amazed looking at these photographs of 
his own country. He did not realize the extent of what these 
resources are and how fantastic this landscape is. I think that 
was really the beginning--this was 2\1/2\ years ago--where 
President Bongo realized this is a priority for him. In fact, 
some months later, along with Secretary Powell, he announced 
that he was setting aside 10 percent of his country's land mass 
to create national parks that will in fact protect this area, 
not only for the people and the wildlife, but for the world.
    We are proud to be working with the likes of President 
Bongo and others within the Congo Basin Forest Partnership. 
There are six African countries, and it is important for us to 
identify those. They are Gabon, Cameroon, Central African 
Republic, the DRC--that is, the Democratic Republic of the 
Congo, Kinshasa capital--the Congo, capital in Brazzaville, and 
Equatorial Guinea. These are the six African countries that 
make up our African governmental partners.
    I am going to let John talk a little bit about how that 
partnership actually works and some of the 11 landscapes that 
in fact have been identified as the core priorities for these 
six countries, for this huge area known as the Congo River 
Basin. We have 11 landscapes that are the priority, that have 
been identified along with the NGO community. Quite frankly, 
the NGO community has been a true leader. Mike Fay and others 
like him have been fantastic allies, hard workers who have 
really done the difficult on-the-ground assessments.
    I would like to conclude with just one story about how the 
Congo River Basin Forest Partnership Initiative not only helps 
preserve ecosystems but, in fact, gets the communities that 
live in it on a better footing. During the war in the DRC, 
border patrols between Uganda, Rwanda, and Congo had no way of 
communicating. Troops were flowing in, troops were flowing out. 
They were flowing through parks and reserves. In fact, mountain 
gorillas' habitat was highly endangered because there was so 
much troop movement coming in from all sides. It was under 
direct threat.
    Yet those anti-poaching units from all three of those 
countries remained at their posts, stayed true to what their 
mission was, that is to protect the habitat. But most 
importantly, through an NGO and U.S. Government funded program, 
we bought them communication gear, walkie-talkie systems, where 
they could actually communicate between each other to let each 
other know what was happening and how in fact that environment 
was being degraded and how it was being threatened.
    That national park ranger communication was the beginning 
of an actual ability for these three governments to talk to 
each other. It was the beginning of an ability for a peace 
process to start unfolding. It was through some of these anti-
poaching units in these national parks, because the three 
countries simply were not communicating with each other. It was 
one of those very on-the-ground ways that protecting our 
environment is also becoming conflict
resolution.
    It is a good story and we want to repeat it as in fact we 
unfold the Congo Basin Forest Partnership. I will conclude 
there, sir.

    [The prepared statement of Mr. Kansteiner follows:]

             Prepared Statement of Walter H. Kansteiner III

    Mr. Chairman, members of the Committee, thank you for inviting me 
to testify here today. Conserving the Congo Basin Forests is a topic 
that Secretary Powell and I are passionate about. Secretary Powell has 
had the opportunity to get a first-hand feel for the region's 
conservation potential and challenges when he visited Gabon last 
September following President Bongo's announcement of his decision to 
create a new national park network. The visit left the Secretary even 
more convinced of the importance of conservation in the region even 
though, as he has wryly noted, his security detail scared away all the 
wildlife before his walk.
    The Congo Basin Forest is a global treasure in a region of both 
great challenge and great opportunity. The forest is not only a 
``global lung'' but a rich store of biodiversity and a source of 
livelihood for millions. The fate of Africa's forests and natural 
resources is inextricably linked to questions of governance, national 
and regional peace, security and economic growth. Poor conservation 
practices and conflict over resource use has the potential to undermine 
stability and hamper prospects for growth. Conversely, sound natural 
resource management will help promote sustainable trade and economic 
growth, transparency and openness, and mitigate health threats. That is 
why we consider conserving Africa's irreplaceable natural resources as 
one of our central priorities in Africa.
    The Congo Basin Forest is the second largest area of contiguous 
tropical forest in the world; the Amazon Basin is the largest. Much of 
the forest remains relatively intact but pressures and threats to the 
forest are growing, including from rapid urbanization, uncontrolled 
timber exploitation and logging, and unsustainable commercial bushmeat 
hunting. The lack of alternative economic opportunities coupled with 
limited capacity and resources for enforcement leave even protected 
areas vulnerable to poaching and illegal logging.
    The good news is that it is not too late for the forest of the 
Congo Basin, nor are we starting from scratch. The U.S. government, 
largely through the Central African Regional Program for the 
Environment (CARPE) and the Smithsonian Institution, the European 
Union, and (NGO) advocates and activists have been active in the region 
for years. They have demonstrated, with limited resources, that well-
designed programs can work.
    The Congo Basin Forest Partnership (CBFP) is an exciting addition 
to these efforts. The CBFP is a partnership of countries, NGOs, and 
private businesses dedicated to the conservation and sustainable use 
and management of the forest. It reflects the Administration's high-
level commitment to the Congo Basin Forest and a strengthened 
commitment by the countries of the region to work in partnership with 
the international community. The six African countries whose forests 
are covered by the CBFP are Cameroon, Central African Republic, 
Democratic Republic of Congo, Equatorial Guinea, Gabon, and the 
Republic of Congo. Our work in the CBFP reflects a shared commitment to 
forge a new, more productive and effective, way of working with each 
other in true partnership. It is imperative that we use our scarce 
resources wisely and not only listen to each other but hear and 
understand the messages being conveyed, even if they are not always 
what we think we want to hear.
    Each of the six African countries of the Congo Basin Forest region 
has committed to address the challenge of conserving its natural forest 
heritage while providing jobs, training, and income for the people in 
the region who depend on its natural resources. As economic pressures 
mount to capitalize on the forest, the countries have made it clear 
they recognize their important stake in the CBFP.
    Just as the CBFP is building on previous international community 
efforts, it is also building on previous African-led efforts. In 1999, 
the Yaounde Declaration, signed by the six heads of state of the Congo 
Basin, set forth strong commitments for regional cooperation to improve 
resource management, create trans-border protected areas, harmonize 
forest policies, combat poaching, and develop sustainable use 
approaches in consultation with rural populations and economic 
operators. The process launched at Yaounde led to the creation of a 
Council of Ministers for Forests of Central Africa (COMIFAC), which 
includes members beyond the CBFP countries. It is responsible for 
coordination of forest policy among the member governments. COMIFAC has 
developed a ``Plan of Convergence'' and an action plan for the region 
that will serve as a reference point for CBFP activities. Other major 
forest initiatives in the region have been brought under the COMIFAC 
umbrella, most notably the African Timber Organization and the 
Conference on Tropical Forest Ecosystems of Central Africa, which 
sponsors dialogue with civil society. COMIFAC recently held a meeting 
to further elaborate their action plan and consider how best to engage 
and work with the CBFP. We hope that COMIFAC will continue to 
strengthen its ability to catalyze regional cooperation and 
implementation of sound forestry policies. Several of the international 
CBFP partners are assisting COMIFAC's efforts to strengthen its 
capacity and effectiveness in the region.
    We should not delude ourselves into thinking that success is 
assured. Many institutions in the region remain fragile and old habits 
and attitudes about the use and value of the environment do not change 
overnight. Nevertheless, we have seen a number of examples of progress.
    At the WSSD, Gabon announced the creation of 13 national parks, 
which encompass ten percent of Gabon's land area, and the Gabonese 
government is cooperating closely with the U.S. government and 
environmental organizations to protect its natural heritage. The 
Republic of Congo is collaborating on an innovative public-private 
partnership in the Kabo forest concession to control poaching and 
ensure sustainable forestry. This area is part of one of the 11 key 
landscapes on which the U.S. contribution to the CBFP will focus. In 
the Democratic Republic of Congo, while the country was still at war, 
conservation rangers on opposite sides of the lines remained 
steadfastly at their posts protecting wildlife and forests and easing 
communications across lines and between the sides. Cameroon continues 
to build capacity in the forestry sector and civil society is actively 
pressing for stronger sustainable management of the country's natural 
resources. In 2001 Cameroon formally protected the Lobeke Park, which 
is a crucial part of the tri-national Sangha complex, which includes 
parks in the Central African Republic and Republic of Congo. Equatorial 
Guinea and the Central African Republic were eager participants in the 
first organizational meeting of the CBFP in Paris and have declared 
their commitment to the CBFP.
    In the months since the Paris meeting, the U.S. partners have been 
hard at work developing programs with in-country partners. As you will 
hear from our USAID colleague, project proposals are now being reviewed 
and decisions should be made in the coming weeks.
    As the example of the rangers in the Democratic Republic of Congo 
illustrates, conservation can be a win-win situation that advances 
broader policy objectives and helps build trust, not simply between 
warring sides but between governments and communities. Conservation is 
not a people versus animals and trees debate. When wisely pursued, it 
is a means to ensure that biodiversity is protected and poverty is 
reduced through the creation of sustainable economic opportunities. 
Well-managed protected areas and buffer zones can be sources of jobs 
and generators of revenue, especially when local communities are full 
partners in the development and management of the areas. The 
conservation of biodiversity can produce revenue as a result of 
research into natural products that could have health or other 
applications (such work is being done by the Smithsonian Institution 
and the National Institutes of Health in Cameroon and they would like 
to replicate it elsewhere in the region). Responsible mining and forest 
concessions can ensure both jobs and sustainable resource exploitation 
to fuel economic growth and trade. Controlling poaching and 
unsustainable commercial bushmeat trade promotes respect for the rule 
of law, preserves biodiversity, and mitigates health risks. On the 
other hand, unsustainable logging practices and continued reliance on 
bushmeat may have negative health effects. Evidence is mounting that 
recent Ebola outbreaks in Congo-Brazzaville and Gabon were triggered 
when hunters and villagers came into contact with infected animals.
    Conservation and sound resource management, by definition, require 
transparency and inclusiveness. The complexities of protecting 
biodiversity and meeting the sometimes conflicting needs of affected 
communities can best be addressed through open processes. The programs 
that the United States supports in the Congo Basin place a premium on 
these qualities and seek to build a capacity and constituency for 
conservation among the people of the region. For example, we have 
supported participatory mapping exercises of the forest and provided 
small grants to local NGOs to carry out work such as education and 
monitoring.
    Conservation programs will not immediately produce flourishing 
democracies, regional cooperation, vibrant civil societies, or 
accelerating economic growth but they can serve as hopeful and 
empowering examples that can radiate well beyond the realm of 
conservation. The process is long and far from linear, but through the 
CBFP and our assistance programs, we are going to do our utmost to make 
the positive vision a reality. As Secretary Powell emphasized during 
his visit to Gabon, we believe our money spent on conservation in the 
Congo Basin is money well-spent. The United States has a history of 
investing in the environment and we are committed to continuing the 
tradition. As Secretary Powell said, ``We don't see this as a one-time 
shot. We are in this for the long run.''

    Senator Alexander.  Thank you, Mr. Secretary.
    Mr. Turner.

  STATEMENT OF JOHN TURNER, ASSISTANT SECRETARY OF STATE FOR 
   OCEANS, INTERNATIONAL ENVIRONMENTAL AND SCIENTIFIC AFFAIRS

    Mr. Turner. Good morning, Mr. Chairman and Senator 
Feingold. It is certainly a pleasure for me to appear with my 
colleagues Walter and Keith to talk about the Congo Basin 
Forest Partnership, and thank you for your personal interest. 
Mr. Chairman, this exciting project has the potential of being 
the largest and boldest conservation project ever attempted.
    But I do want to take this opportunity this morning to 
thank you for your leadership and lifetime passion for 
conservation. Especially when I was at the Conservation Fund 
working with Pat Noonan, your leadership, Governor Sundquist, 
Gary Meyers, the effort to protect state parks and state 
forests in your wonderful State of Tennessee, I think together 
we did over 100,000 acres in the last few years in your great 
State of Tennessee.
    Mr. Chairman, as we are all aware, nearly 2 weeks ago 
President Bush ended his historic trip to Africa. He found it, 
as you discussed this morning, certainly a continent full of 
hope and promise, yet facing enormous challenges. Accompanied 
on that trip by my friend Walter, the President spoke 
forthrightly about the ravaging effects of poverty, corruption, 
HIV-AIDS, and the regional wars on the people of Africa.
    At the same time, President Bush also addressed how we in 
the United States can support Africans in achieving during this 
decade rising prosperity and expanding peace. I believe the 
Congo Basin Partnership is a major effort to enhance the future 
of the citizens of the west central region of this great 
continent.
    The Congo Basin project is also, I believe, reflective of 
this President's unprecedented commitment to reduce 
deforestation and conserve tropical forests around the world. 
In addition to the Congo Basin effort, other components of 
President Bush's leadership are efforts in the Amazon, 
expanding the Tropical Forest Conservation Act, utilizing our 
remote sensing capacity to monitor what is going on in forests, 
and the exciting initiative to combat illegal logging which 
will be announced by Secretary Powell next Monday.
    The Congo Basin is a global treasure and is extremely 
immense, as you pointed out. This area is equivalent to the 
size of our five States of California, Texas, New Mexico, 
Arizona, and Utah combined. As was pointed out, Secretary 
Powell launched the Congo Basin Partnership September of '02 at 
the World Summit on Sustainability in Johannesburg. At the end 
of the summit, the Secretary did travel to Gabon to review and 
discuss the potential of this wonderful partnership and to 
thank President Bongo and the people of Gabon for the 
commitment they have made to protect their tropical landscape. 
I believe this was an historic first-ever trip highlighting 
forest conservation by a Secretary of State from the United 
States.
    Mr. Chairman, the United States believes this partnership 
holds tremendous promise for this resource-rich region that has 
suffered much over the decade from poverty and instability and 
too often gut-wrenching violence. These forests and their 
wildlife are major assets to the social, economic, and 
environmental health of the Africans. The partnership is a 
powerful mechanism for economic and social development as well 
as advancing our environmental goals with our partners in 
Central Africa, including the fight against illegal logging and 
associated trade and corruption.
    In broad terms, the U.S. priorities for the partnership are 
to provide the people of the region a sustainable means of 
livelihood through well-managed forest concessions, sustainable 
agricultural practices, and an integrated ecotourism program. 
These approaches will improve forest and natural resource 
governance through community-based management, combating 
illegal logging and bush meat trade, and enforcing anti-
poaching efforts.
    The partnership will also help the Congo Basin countries 
develop a network of effectively managed parks, protected 
areas, and ecological corridors which encompass coverage of 
over 25 million--25 million--acres.
    We have taken a number of steps during the last few months 
toward this end. In January, we co-hosted with the French 
government an international meeting of the Congo Basin 
Partnership. This brings senior level administrative folks from 
the United States who traveled to the Congo Basin to assess the 
critical needs for capacity-building and training. Ongoing 
consultations in the region and among State, AID, and other 
Federal entities, such as the Forest Service, the Fish and 
Wildlife Service, the Park Service, the Department of Commerce, 
NASA, USGS, and the Smithsonian Institute, and OPIC, are 
developing collaborative training and capacity-building efforts 
under this partnership.
    The administration is committed to investing up to $53 
million in the partnership to the year 2005. Working closely 
with regional governments and organizations, U.S.-based 
conservation NGO's such as the Wildlife Conservation Society, 
World Wildlife Fund, and the World Resource Institute plan to 
significantly expand their programs in nearly a dozen critical 
forest landscapes. Their efforts, along with the American 
Forest and Paper Association and the Society of American 
Foresters, represent an essential element in this developing 
partnership. However, without the strong support and commitment 
of African governments and people this partnership could not 
succeed.
    Mr. Chairman, we feel we are on the right track and have 
the right commitments from the partnership for developing the 
resource base to make the Congo Basin Forest Partnership work. 
Finally, let me add that this partnership gives America an 
opportunity to share our insights and lessons learned since 
creating and maintaining the world's first national park, 
Yellowstone, in my native State of Wyoming. Setting aside wild 
lands and wild critters for their own intrinsic value certainly 
was one of our country's best inventions and one that we can 
share with neighbors around the world.
    We want to do our part the help improve the lives of the 
people of west-central Africa and to build a lasting legacy for 
current and future generations.
    Thank you, Mr. Chairman.

    [The prepared statement of Mr. Turner follows:]

                  Prepared Statement of John F. Turner

    Mr. Chairman and distinguished and honorable Senators, ladies and 
gentlemen.
    Thank you for the opportunity to share my views about the 
opportunities and challenges ahead of the Congo Basin Forest 
Partnership.
    The Congo Basin Forest is a global treasure, the world's second 
largest intact tropical forest, spanning 700,000 square miles--
equivalent to California, Texas, New Mexico, Arizona, and Utah 
combined. It catches water from millions of acres of pristine forest, 
which provide a livelihood to millions of Africans. Within these 
forests is a wealth of incredible species of plants and animals, many 
of which were unknown until recently. The Congo Basin Forest must be 
protected and conserved for the economic and environmental good of 
Africa and for the ecological heritage of
humankind.
    Secretary Powell launched the Congo Basin Forest Partnership on 
September 4, 2002, at the World Summit on Sustainable Development in 
Johannesburg, South Africa. This partnership--of governments, 
international organizations, non-governmental environmental 
organizations, industry, and civil society--recognizes that creating 
conditions for sustainable development is much too big a task for 
governments to tackle alone. Strong public-private partnerships are 
crucial to mobilizing greater interest and financial support and to 
moving away from old, inefficient, ineffective ways of doing business. 
A non-hierarchical relationship among partners is essential to the 
partnership.
    Following the launch in South Africa, Secretary Powell visited 
Gabon for the inauguration of Gabon's national park system, a historic, 
first-ever trip highlighting forest conservation by a Secretary of 
State. The U.S. has sent high-level interagency teams into the Congo 
Basin region to assess critical needs for capacity-building training. 
My bureau, along with the Bureau of African Affairs and USAID, has 
developed a regular interagency dialogue and has hosted exchanges with 
multiple Congo Basin Forest Partnership stakeholders. The Department of 
State held its first-ever symposium on ecotourism to explore ways to 
develop that industry in the Congo Basin. We hope to build on the 
knowledge gained from the symposium and work with the region to make 
wise choices for sustainable development. Secretary Powell underscored 
critical links between conservation and sustainable management of 
forest resources at his Open Forum event celebrating Earth Day. One of
our Congo Basin Forest Partnership partners, Dr. Jane Goodall, was the 
keynote speaker.
    This September, the Jackson Hole Wildlife Film Festival will 
highlight the efforts being made to conserve and sustainably manage 
Central African forests. The Congo Basin Forest Partnership will 
receive a conservation action award. President Bongo of Gabon will 
receive an award for setting aside over 10,000 square miles to create a 
system of 13 national parks. The Republic of Congo's President, Denis 
Sassou-Nguesso, has also been invited to receive recognition for his 
country's leadership role in the Congo Basin Forest Partnership, 
notably in identifying commercial bush meat sales as a critical 
conservation problem and in creating laws to address it, as well as in 
setting aside more than 13 percent of Congo's forests as protected 
areas.
    Mr. Chairman, the United States has promoted the Congo Basin Forest 
Partnership and is providing a significant contribution to it because 
these forests and their wildlife are of global significance, because 
they are a major factor in the social, economic, and environmental 
health of our Congo Basin country partners, and because this is a 
wonderful opportunity to build on existing structures of cooperation 
between governments, NGOs, and the private sector in the region. I note 
that without the strong support and commitment of African people and 
governments, as well as civil society and private sector organizations, 
this partnership could not exist. It is a powerful mechanism for 
advancing our environmental goals in Central Africa, including the 
fight against illegal logging and associated trade and corruption. It 
is in our strategic interest to improve the ability of our African 
partners to enforce their laws and sustainably manage their resources. 
By promoting conservation and sustainable development in Central 
Africa, we strengthen our partnerships in the region and help create 
viable alternatives to fear, greed, and corruption.
    In broad terms, U.S. priorities for the Partnership are to provide 
people sustainable means of livelihood through well-managed forestry 
concessions, sustainable agriculture, and integrated ecotourism programs; 
to improve forest and natural resource governance through community-based 
management, combating illegal logging, and enforcing anti-poaching laws; 
and to help the Congo Basin countries develop a network of effectively 
managed parks, protected areas, and ecological corridors.
    The Congo Basin Forest Partnership is also intended to help people 
obtain long-term sustainable forest-based employment through the 
sustainable management of natural resources whether through ecotourism, 
wildlife law enforcement, reduced impact logging, or park management. 
This effort will improve the economy of the region, and the economic, 
political, and environmental benefits will be apparent to all.
    The Administration is committed to invest up to $53 million in the 
Congo Basin Forest Partnership through the year 2005. The U.S. 
investment has already leveraged additional support from other donors, 
and has spurred on collaboration between USAID and the State Department 
on developing strategic objectives for U.S. priorities in the Congo 
Basin Forest Partnership. The partnership has sparked shared 
coordination efforts by USDA, U.S. Forest Service, U.S. Fish and 
Wildlife, U.S. Park Service, NASA, and others.
    Meanwhile, U.S.-based conservation NGOs plan to expand 
significantly their programs in the eleven Congo Basin Forest 
landscapes identified as critical to biodiversity conservation in the 
Congo Basin. These Congo Basin Forest Partnership stakeholders' 
proposals to USAID's Central African Regional Program for the 
Environment (CARPE) are presently under review by a USAID/State team in 
Kinshasa. We have every confidence, given the NGOs and USAID/CARPE's 
heroic efforts to get programs up and running quickly, that the 
obligation of funds for these programs will be achieved by September 
30, roughly one year from the launching of the Congo Basin Forest 
Partnership, and nine months since its first organizational meeting. 
U.S.-based NGOs have committed to matching the United States 
government's financial contribution for work in these eleven 
landscapes. I would like to note our particular appreciation for the 
outstanding commitment of our NGO partners, whose efforts represent an 
essential element in this developing partnership.
    We are especially pleased that the forest industry, including the 
American Forest and Paper Association (AF&PA), and professional 
societies such as the Society of American Foresters (SAF), are eager to 
bring their technical expertise and financial resources to bear in the 
Congo Basin countries.
    None of these U.S. accomplishments can stand on their own without a 
healthy commitment to building the international dimensions of the 
Congo Basin Forest Partnership. In January we co-hosted, with the 
French government, an international meeting of the Congo Basin Forest 
Partnership. At that meeting, partners agreed that the United States 
would be the facilitator of the Congo Basin Forest Partnership for at 
least its first two years. We also committed to sponsoring an African 
co-facilitator, resident in the Congo Basin, to be a Congo Basin Forest 
Partnership liaison with African partners, in order to ensure that 
their priorities and interests are addressed.
    We note that a number of partners, European and African, have been 
meeting together this past spring and summer, planning their own 
contributions to our shared Congo Basin Forest Partnership objectives. 
The U.S. has been invited to contribute to these meetings in the spirit 
of cooperation within the Congo Basin Forest Partnership framework. An 
international meeting is being considered for the region this fall. It 
would improve coordination and energize cooperation. Our goal is to 
consolidate these relationships, which merge the interests of 
governments with agricultural, forestry, and conservation interests, 
across public and private sectors, into the largest and most successful 
partnership in Africa, and make it a viable forest conservation model 
for the world.
    We are undertaking a comprehensive inventory of forest and 
wildlife-related projects and programs in the region, which will help 
us coordinate our strategy and identify gaps that need to be filled. We 
are constructing a web page to link the partners and their programs. 
There is a great deal more we can do with your support. We are 
confident that we are on the right track, have the right commitments 
from partners, and are developing the resource base to make the Congo 
Basin Forest Partnership work.
    It is important to bear in mind, though, that we are still learning 
to build this new partnership. We must reconcile the time it takes to 
restructure relationships among the stakeholders and the imperative to 
get real projects under way in support of our objectives. We are 
learning to innovate, to rearrange public-private relationships, and to 
build a Congo Basin Forest Partnership that is credible and 
accountable. Here I would like to express my particular appreciation 
for the work the Smithsonian Institution has done to ensure that all 
the stakeholders have a voice.
    We expect to see more progress over the next year, as we develop 
new political and economic partnerships, and make measurable progress 
in stopping forest degradation in the Congo Basin--to the economic 
benefit of the region and to the ecological benefit of the planet.
    Thank you very much. I would be happy to answer any questions that 
you may have.

    Senator Alexander.  Thank you, Mr. Turner.
    Mr. Brown.

       STATEMENT OF KEITH BROWN, SENIOR DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Brown. Thank you, Mr. Chairman. Mr. Chairman, members 
of the committee: Thank you for inviting me to testify before 
you at this very important hearing on the Congo Basin Forest 
Partnership. I am pleased to join Assistant Secretaries 
Kansteiner and Turner for this hearing. It is important to note 
that the U.S. Agency for International Development and the 
Department of State have been in close collaboration throughout 
the development of the Congo Basin Forest Partnership. We will 
continue to work together along with other U.S. Government 
agencies, African governments, and U.S. and African 
conservation and business groups to ensure a strong partnership 
for the Congo Basin.
    My colleagues have provided excellent overviews of how the 
CBFP has evolved since its unveiling at the World Summit on 
Sustainable Development in September of 2002. USAID's Central 
African Regional Program for the Environment, or CARPE, our 
most prominent natural resource management program in Africa, 
is the primary implementation vehicle for the U.S. contribution 
to the CBFP.
    With the committee's indulgence, I would like to focus 
today on three main areas: CARPE as the foundation for a strong 
effective partnership; a review of steps taken to date, 
including those in the area of selecting implementing entities; 
and an outline of the steps to come.
    We have three priorities for the CBFP and CARPE. The first 
is to encourage communities in the Congo forest region to 
achieve a sustainable means of livelihood through well-managed 
forestry concessions, sustainable agriculture, and integrated 
ecotourism programs. The second is to help the people of 
Central Africa develop a network of effectively managed 
national parks, protected areas, and corridors. The third is to 
improve forest and natural resource governance by encouraging 
community-based management and economic uses of natural 
resources, combating illegal logging, and enforcing anti-
poaching laws.
    The CBFP represents a unique opportunity to achieve 
enhanced environmental conservation in Central Africa. Mr. 
Chairman, as you mentioned in your statement, Congo Basin 
Forest Partnership activities will be linked to the 
conservation of 11 key landscapes in 6 countries in Central 
Africa. A landscape is defined as an area of land whose use is 
constrained.
    The CBFP landscapes are composed of three distinct areas: 
national parks, buffer zones around national parks, and 
corridors between the parks and buffer zones. The landscapes 
approach offers a bigger picture strategy than some previous 
efforts that mainly focused on national parks and protected 
areas. By combining protected areas, buffer zones, and mixed 
use areas into broad landscapes, a more holistic plan can be 
developed that meets the particular needs of each landscape.
    With the landscape approach, implementing partners should 
have more leeway to address the social, economic, and political 
causes of the threats to the critical resources in the region. 
Only in this manner can we expect to achieve demonstrable 
progress in the economic development, institutional capacity, 
and conservation objectives of the CBFP.
    USAID is committed to working with the CBFP partners to 
closely monitor performance, and we remain prepared to assist 
the partners to design implementation plans that ensure the 
highest possible degree of results.
    The Congo Basin Forest Partnership is a partnership based 
on helping the people of Central Africa maintain their forests. 
A list of illustrative activities includes: training for 
African rangers and game scouts, dissemination of materials 
that help provide African citizens with information to 
participate in natural resource governance, support for the 
development of African community enterprises linked to 
landscape conservation, support for the adoption and 
strengthening of legislation related to natural resource 
management, including protected areas and forestry, support for 
regional processes for communication, collaboration, and policy 
coordination, and large-scale monitoring of forest access, land 
use, and deforestation using remote sensing technologies.
    Toward this end, and as you have mentioned, the U.S. 
Government proposes to invest up to $53 million over 4 years, 
of which approximately $48 million will be provided by USAID 
through the CARPE. The combination of the CBFP facilitation 
process and the field-based USAID CARPE management affords us 
an excellent mechanism to ensure that U.S. Government resources 
are serving the most critical needs and are efficiently and 
effectively being spent on achieving results.
    Another key component of the Congo Basin Forest Partnership 
is the past work of the partners in CARPE. CARPE was launched 
in 1995, and it has helped to fill a major void by collecting 
important data on the Congo Basin. For the past 7 years, CARPE 
has received annual USAID funding of $3 million to address 
environmental needs in 9 countries in the region. CARPE will 
continue doing work in these areas while the Congo Basin Forest 
Partnership focuses on the 11 landscapes. It is essential to an 
effective partnership that there be a blending of the strengths 
of CARPE with the new emphases of the Congo Basin Forest 
Partnership.
    Furthermore, USAID is now emphasizing a transition for 
CARPE, moving from learning lessons to applying these lessons 
to action on the ground. In order to facilitate this change in 
strategy, in January of 2003 USAID relocated CARPE management 
from USAID headquarters in Washington to the Congo Basin. We 
believe that this change will greatly strengthen our presence 
in the basin, affording many more opportunities to interact 
with all partners in assessing and addressing problems and 
opportunities on the ground.
    USAID has already taken important action to support those 
entities which will implement conservation programs in the 
Congo Basin. USAID also broadly and extensively involved the 
interested U.S. Government agencies in developing detailed 
criteria for the evaluation of proposals for these landscapes. 
These agencies include the State Department, the U.S. Fish and 
Wildlife Service, the U.S. Forest Service, the National Park 
Service, and NASA.
    Taking advantage of completed agreements already in place, 
USAID has requested applications from four major U.S. 
environmental NGO's and is currently in the final stages with 
the State Department of reviewing these applications. 
Critically important in these applications will be evidence 
that the NGO's have secured cooperation from the host 
government in the development of field activities, as well as 
evidence that other NGO's with specialized expertise can 
partner in field implementation.
    A portion of the funding will also support certain U.S. 
Government agencies with specific strengths that complement the 
conservation NGO's. Our intent is that all fiscal year 2003 
funding will be put in place for our implementing partners by 
September 30th of this year so that they can proceed 
expeditiously.
    As we look to the future, we realize that there are special 
opportunities to address environmental issues in the 11 
landscapes that will be the particular emphasis of U.S. 
Government resources within the Congo Basin Forest Partnership. 
We intend to ensure that the focus of CARPE will be on 
producing identifiable results within those landscapes which 
will be reported back to Congress.
    In order to ensure that U.S. Government resources make a 
difference, we must respect the fact that this effort depends 
upon the people living in the Congo Basin to achieve a lasting 
positive impact on the second largest tropical rain forest in 
the world. We have every intention of making that a high 
priority.
    Mr. Chairman, I want to thank the committee for drawing 
attention to this important administration initiative and I 
look forward to taking your questions.

    [The prepared statement of Mr. Brown follows:]

                   Prepared Statement of Keith Brown

    Mr. Chairman, members of the committee, thank you for inviting me 
to testify here today at this important hearing on saving the Congo 
Basin. I am pleased to join my colleagues from the Department of State. 
It is important to note that the U.S. Agency for International 
Development and the Department of State have been in close 
collaboration throughout the development of the Congo Basin Forest 
Partnership (CBFP). We will continue to work together along with other 
U.S. government agencies, African governments, and U.S. and African 
conservation and business groups to ensure a strong partnership for the 
Congo Basin. We have great hopes for the future of the Congo Basin 
because in the words of Secretary of State Colin Powell:

          [those] . . . in this partnership, have agreed to work 
        together to help the countries of the Congo Basin create and 
        manage protected forest areas, such as national parks. . . . 
        [and] will work together to combat illegal logging and other 
        unsustainable practices, and . . . implement programs to 
        improve forest management and give people a stake in the 
        preservation of the forest, by providing them with sustainable 
        forest based livelihoods.

    My colleagues have provided excellent overviews of how the CBFP has 
evolved since its unveiling at the World Summit on Sustainable 
Development in September 2002. The CBFP includes a number of 
governments, donors, NGOs and corporate groups. USAID's Central African 
Regional Program for the Environment (CARPE) is the primary 
implementation vehicle for the U.S. contribution to the CBFP.
    With the Committee's indulgence, I would like to focus today on 
three main areas: (1) CARPE as the foundation for a strong effective 
partnership; (2) a review of steps taken to date including those in the 
area of selecting implementing entities; and (3) an outline of the 
steps to come.
    The priorities of the CBFP/CARPE will be to:

  <bullet> Encourage communities in the Congo Forest region to achieve 
        a sustainable means of livelihood through well-managed forestry 
        concessions, sustainable agriculture and integrated ecotourism 
        programs;

  <bullet> Help African countries develop a network of effectively 
        managed national parks, protected areas and corridors; and

  <bullet> Improve forest and natural resource governance by 
        encouraging community-based management and economic uses of 
        natural resources, combating illegal logging and enforcing 
        anti-poaching laws.

    CBFP activities will be linked to the conservation of 11 key 
landscapes in 6 countries in Central Africa. Landscapes are 
ecologically significant areas, some of which have been officially 
designated as national parks, and the outlying area.
    A list of illustrative activities includes: training for rangers 
and game scouts; support for the development of community enterprises 
linked to landscape conservation; support for the adoption and 
strengthening of legislation related to natural resource management, 
including protected areas and forestry; support for regional processes 
for communication, collaboration and policy coordination; large-scale 
monitoring of forest access, land use and deforestation using remote 
sensing technologies; and the dissemination of materials that help 
provide citizens with information to participate in natural resources 
governance.
    USAID will stress the importance of working with three African 
regional institutions: Conference of Ministers in charge of Forests in 
Central Africa (COMIFAC), the Conference of Central African Moist 
Forest Ecosystems (CEFDHAC), and the American Timber Organization. The 
USG, together with the partners in the CBFP, is now in a better 
position to support the aspirations of the African people in the 
region. Working together we can all make a big difference on the wide 
range of problems threatening the environment in the Congo Basin.
    The USG proposes to invest up to $53 million over four years (2002-
2005) of which approximately $48 million will be provided by USAID 
through CARPE in FY 2002-2005. The combination of the CBFP facilitation 
process and the field-based USAID CARPE management affords us an 
excellent mechanism to ensure that the USG resources are serving the 
most critical needs and are efficiently and effectively being spent on 
achieving results.
    I agree with my colleagues that the foundation for the future of 
the Congo River Basin is the extraordinary role played by Conservation 
International (CI), Wildlife Conservation Society (WCS), and the World 
Wildlife Fund (WWF) in focusing both public and private sector 
attention on the needs and opportunities of the environment in the 
Congo Basin. These partners are proving critical to the launch of the 
partnership.
    Another key component of the CBFP is the past work of the partners 
in CARPE, USAID's most prominent natural resource management programs 
in Africa. CARPE was launched in 1995 with the initial purpose ``to 
identify and begin to establish the conditions and practices required 
for the conservation and sustainable use of the natural resources of 
the Congo Basin, in a manner which addresses local, national, regional 
and international concerns.'' In so doing, CARPE helped to fill a major 
void by collecting important data on the Congo Basin. For the past 
seven years, CARPE has received annual USAID funding of $3 million to 
address environmental needs in nine countries in the region.
    CARPE has been active at a time of intense interest in the 
rainforests of the Congo Basin. At the same time, the international 
community has become far more aware of the Basin's importance in a 
global context, whether by providing a potential source of forest 
products or absorbing carbon dioxide. Conservation efforts and 
scientific studies, partially supported by funds from CARPE, have 
opened a window into a part of the world previously very poorly 
understood.
    African governments, meanwhile, have become much more attentive to 
the forest; improving laws and institutions that manage it, and at the 
same time granting extensive concessions to log it. This emphasis on 
logging has been a response to increasing global demand for tropical 
timber. Those who live and derive their livelihoods from the forest are 
faced with increasingly difficult economic times, and have relied on 
the forest to deliver them more and more benefits in ways that may not 
be sustainable.
    CARPE emphasized four subject themes: (1) improving logging policy 
and practice; (2) enhancing protected areas within a lived-in 
landscape; (3) encouraging better environmental governance; and (4) 
strengthening local resource management systems. These themes are in 
turn supplemented by three cross-cutting principles (promoting 
monitoring processes; improving training and institutional 
strengthening; and ensuring donor coordination). Generally, these 
themes have provided a sound framework for organizing the work of the 
partners. The results of the program are summarized in a document 
entitled, ``Results and lessons learned from CARPE Phase I,'' which we 
would be happy to provide to the Committee.
    Allow me to provide you with some examples of the activities that 
CARPE partners are implementing.

Improving Logging Policy
    WCS has undertaken ground-breaking work in northern Republic of 
Congo (ROC) working closely with CIB (Congolaise Industrielle des 
Bois), a European logging company, to improve its practices. 
Collaboration between logging companies and NGOs is new in the area and 
is proving to be a promising partnership.

Enhancing Protected Areas
    Protected areas have been the principal domain of WWF (in Central 
African Republic (CAR) and Gabon) and WCS (in ROC and Gabon).

Encouraging Better Environmental Governance
    The conservation community in the Basin has found a role in causes 
such as reducing bushmeat consumption, a practice that threatens 
species, disturbs ecosystems and spreads disease. Community management 
of local forests (once exclusive to the national government and well-
placed expatriate logging firms) has attracted a groundswell of 
attention in Cameroon. These and other examples around the Congo Basin 
indicate that, despite a period of significant physical insecurity in 
the Basin (ROC, CAR, and Democratic Republic of Congo (DRC)), the 
people and their governments are concerned about the deterioration of 
their environment and want to take action to halt this trend.

Strengthening Local Resource Management
    Local resource management systems have been addressed by a number 
of partners, most notably Innovative Resources Management (IRM) in its 
work in Cameroon. This work has encouraged Africans to feel a sense of 
``ownership'' of the forest. A number of small-grant holders have also 
done interesting and useful work, though all on a modest scale.
    Monitoring the forest through use of remote sensing techniques has 
been carried out and has generated productive collaboration between 
partners, as well as a good interchange between the U.S. and field-
based workers. It provides quantitative data capable of informing 
predictions and policy decisions.
    CARPE has funded some excellent regional training initiatives, as 
well as funding capacity-building grants to local NGOs, which have 
displayed potential. These activities have mainly been in those 
countries where CARPE has a field presence.
    In sum, CARPE and its partners have worked with great cost-
efficiency to deliver a complex, flexible and imaginative contribution 
to forest conservation in the Congo Basin. That work has served to 
assure us that this recent significant increase in funding is based on 
tested methods, reliable data and experienced partners and will produce 
identifiable results.
    It is essential to an effective partnership that there be a 
blending of the strengths of CARPE with the new emphases of CBFP. In 
developing the overall design document for CARPE, USAID consulted 
extensively with a broad NGO community (October 16-17, 2002) and with 
interested USG agencies (December 12, 2002) and formally approved the 
new CARPE Strategic Objective design document on January 17, 2003.
    Furthermore, USAID is now emphasizing a transition for CARPE, 
moving from ``learning lessons'' to applying these lessons to action on 
the ground. In order to facilitate this change in strategy, in January 
2003, USAID relocated CARPE management from USAID headquarters in 
Washington to the Congo Basin (USAID/Kinshasa, DRC). We believe that 
this change will greatly strengthen our presence in the Basin, 
affording many more opportunities to interact with all partners in 
assessing and addressing problems and opportunities on the ground.
    USAID also broadly and extensively involved the interested USG 
agencies in developing the detailed criteria by which each technical 
proposal would be judged. These agencies include the State Department, 
U.S. Fish and Wildlife Service, U.S. Forest Service, the National Parks 
Service and NASA. The criteria fall into four broad categories: (1) 
technical criteria that are directly related to the specific results 
described in the Strategic Objective document; (2) management criteria 
that demonstrate strong and formal partnerships at several working 
levels; (3) geographic criteria that demonstrate a balanced approach 
across geographic zones and national boundaries; and (4) a clear 
demonstration and commitment to mobilizing non-USG financial and 
material resources that complement and match the USG financial
contribution.
    USAID has already taken important action to support those entities 
which will implement conservation programs in the Congo Basin. Using 
the ``Leader with Associates'' cooperative agreement process to take 
advantage of competed agreements already in place, USAID has requested 
applications from four major U.S. environmental NGO's and is currently 
in the final stages of reviewing these applications. Critically 
important in these applications will be evidence that the NGOs have 
secured cooperation from the host government in the development of 
field activities as well as evidence that other NGOs active in selected 
landscapes can partner in field implementation. A portion of the 
funding will also support certain U.S. Government agencies with 
specific strengths that complement the conservation NGOs. Our intent is 
that all fiscal year 2003 funding will be put in place for our 
implementing partners by September 30, 2003 so that they can proceed 
expeditiously.
    As we look to the future, we realize that there are special 
opportunities to address environmental issues in the eleven landscapes 
that will be the particular emphasis of USG resources within the CBFP. 
We intend to ensure that the focus of CARPE will be on producing 
identifiable results within those landscapes which will be reported 
back to Congress.
    Thank you for supporting the Administration's request and for your 
continued support of the Administration's efforts to promote 
conservation and sustainable resource management in the Congo Basin. In 
order to ensure that the USG's resources make a difference, we must 
respect the fact that this effort depends upon the people living in the 
Congo Basin to achieve a lasting, positive impact on the second largest 
tropical rainforest in the world. We have every intention of making 
that a high
priority.
    I thank the Committee for drawing attention to this important 
Administration initiative and I look forward to taking your questions.

    Senator Alexander.  Thanks, Mr. Brown, and thanks to all of 
you.
    Senator Feingold hopes he can come back, but we are going 
to move right ahead. I have a few questions, and then we will 
move to the second panel.
    Mr. Turner's comment about our National Park System, I 
think, is appropriate here. One of the great contributions of 
the United States of America to the rest of the world, as well 
as to ourselves, was the idea of the National Park System and 
what we learned about it. Our family lived in Australia for a 
while and the Australians very shortly after the United 
States--the Australians modeled their national park system 
after the United States National Park System.
    I wonder whether--Mr. Turner, you may know the answer to 
this, or maybe Mr. Brown--is our National Park Service, its 
planners, designers, are they involved in this effort?
    Mr. Turner. Mr. Chairman, we are pleased to have the 
involvement of the National Park Service. Especially we have 
asked them to focus on bringing their expertise and experience 
to capacity-building, i.e., training. We, with the Forest 
Service, the Fish and Wildlife Service, the Park Service, we 
will do in-country training for professionals within the 
ministries in Africa. We will also bring Africans to the United 
States.
    We have a trip planned with President Bongo and many of his 
officials--and perhaps President Sassou of the Congo--coming to 
the Yellowstone region this fall, where we can showcase 
Yellowstone, Grand Teton, and the Forest Service programs, Fish 
and Wildlife programs. So we definitely feel that our expertise 
and experience with national parks is going to be important in 
this capacity-building effort.
    Senator Alexander.  We have learned in other activities 
that sometimes, even though we might have thought of it and we 
are bigger and wealthier than other countries, that sometimes 
it helps to have friends. The Australians are very proud of 
their national park system. They have learned a lot from it. I 
wonder if it would make any sense to involve the Australians in 
what we are doing in the Congo Basin Forest Partnership. They 
might welcome that opportunity.
    Mr. Turner. Mr. Chairman, we have had discussions with the 
Australians. They are interested. I might note that we do have 
15 countries now involved in this partnership in addition to 
the 6 Central African countries that Walter mentioned. South 
Africa has helped us facilitate it, but we also have the likes 
of France, Germany, the U.K., Belgium, the EU, Japan, Canada?
    Senator Alexander.  What are they doing, what 
contributions? Are they doing specific things or are they just 
formally endorsing the idea?
    Mr. Turner. Everyone has made commitments. We are 
coordinating those to see which country is going to meet which 
needs, and that dialogue began in Paris last fall and we 
continue that. So it is a wonderful partnership of countries 
coming together, NGO's and the private sector. We are getting 
help from companies like Shell on basic biological inventories.
    I think it is important to note that we are blessed with 
resources, as are other donor countries. The commitment that 
the developing world has made in the last decade to national 
parks is significant. And land protection, it is something I 
hope we can draw attention to and look at needs as the World 
Park Conference is coming up in Durbin, South Africa, in 
September; and we can all gather to celebrate this great idea 
and see how we can sustain it and grow it into the future.
    But the developing countries, some of the poorest regions 
of the world, have made the largest commitment in recent years 
to protected areas.
    Senator Alexander.  Thank you. The premier of New South 
Wales, Bob Carr, was the environmental minister for Australia 
for a long time, so he would be a likely suspect to be 
interested.
    I have one other question before we go to the second panel. 
I notice in Mr. Brown's testimony and some of the other 
statements that, looking at the objectives, the priorities, 
encouraging communities to achieve a sustainable means of 
livelihood--that means jobs to me. Is that what that means, Mr. 
Brown? Then the second one is a network of effectively managed 
national parks; and the third objective is to improve the 
governance.
    I am wondering if there is not something a little deeper 
here, and let me see if this is what you are thinking. I think 
it is, but let me see. My experience in government suggests to 
me that cities, counties, states, countries do best when they 
identify things that make them unique and special and then 
organize around those things to go forward. It gives them a 
sense of confidence, a sense of who they are, and generally 
contributes to progress.
    When Memphis, for example, when it celebrates Beale Street 
and celebrates the Mississippi River and celebrates agriculture 
and celebrates its location in the center of the country as a 
distribution center, then Memphis does better because those are 
the things that make it different than, say--well, you do not 
find Beale Street in Knoxville. You find it in Memphis, and it 
celebrates those things.
    So my thought about this is it is wonderful to protect 
ecological treasures, but maybe the greater contribution that 
your effort may make in Africa will be the byproduct, which 
will be to help build, to help African countries focus on 
something that is unique and special about their country they 
cannot find anywhere else; number two, to build institutions 
and ways of working together that will make that a success. A 
byproduct of those institutions will be to solve other problems 
and create a civil society and a country that is progressive.
    In other words, it is not just to save the parks; it is 
also to help build institutions that will create a stronger 
country. I am sure that is what you have in mind, but I 
wondered if any of you wanted to comment on that?
    Mr. Brown. Well, let me comment on that first. I think you 
are absolutely right. The goal I think of this entire effort is 
to promote sustainable development and to alleviate poverty for 
the benefit of the people. We must have buy-in by the people to 
this process to make sure that it is successful.
    As you know and understand, what is happening right now is 
an unsustainable use of the forest in the basin, and to make a 
sustainable use of the forest will require economic development 
activities. So part of the process that we have laid out is to 
work specifically with community enterprises in developing ways 
in which they can use the forest in a sustainable manner and to 
generate sustainable agricultural practices. This will 
certainly contribute tremendously to the development of the 
individuals in these particular landscapes but for the 
countries as a whole.
    I think you are absolutely right, and I think that 
commitment is there from the governments. It needs to be 
achieved with the people, the local people in the various 
landscapes. I think that the proposals that are being developed 
right now for work in these landscapes will have a major 
element in them of working with these local communities and 
groups to make sure that they have livelihood opportunities 
that are sustainable.
    Senator Alexander.  Thank you, Mr. Brown.
    Mr. Secretary, do you have any comment, or Mr. Turner, on 
that?
    Mr. Kansteiner. Go ahead, John.
    Mr. Turner. Well, Mr. Chairman, I think you are absolutely 
right. While we are all interested in the conservation of the 
wild resources down there, we first have to take care of 
people. The people of the region are betting their future, 
their economic future, their social and economic future, on 
this conservation plan. So we need to think jobs. We need to 
think income from tourism, from more sustainable use of forest 
products, ending the slash and burn agriculture. We need to 
think about fresh water availability and energy. We need to 
think about health care, the malaria and the disease issues 
down there.
    So I think this administration, this President, has indeed 
looked at projects like this that would integrate social, 
economic, and environmental sustainability. So I know Secretary 
Powell and this administration are interested in how we are 
going to raise the wellbeing and the livelihoods and the 
aspirations across the board for the people of this region.
    Senator Alexander.  Mr. Secretary?
    Mr. Kansteiner. Just one quick last comment. All six of 
these African countries have signaled and demonstrated their 
eagerness and willingness to pursue this partnership. That was 
not the case 3 or 4 years ago. The window is open. They are 
saying, we get it, we understand it, can you help us build it? 
So it is a tremendous opportunity, and we thank you and the 
Congress for standing with us and supporting us.
    Senator Alexander.  Mr. Kansteiner, Mr. Turner, Mr. Brown, 
thank you very much for your time. I hope this hearing helps 
put a spotlight on what you are doing. It is very important 
work. The Congress is interested in it. We admire Secretary 
Powell and the President for their focus.
    I will be in Africa the last 2 weeks of August with Senator 
Frist. We will not get to the Congo, but maybe some time soon I 
will have a chance to do it again. This will be a continuing 
interest. Please keep the committee informed of what you are 
doing and of what help you need to succeed.
    Mr. Turner. Thank you.
    Mr. Kansteiner. Thank you.
    Senator Alexander.  Thank you.
    Now, if Dr. Fay and Mr. Mokombo will come forward, we will 
go to the second panel. [Pause.]
    Senator Alexander.  I am going to introduce the witnesses. 
I barely recognize Dr. Fay all dressed up like that, but Dr. 
Michael Fay is an ecologist with the Wildlife Conservation 
Society; but that hardly tells the story. In 2000 and 2001 he 
led a 1200-mile year-long trek through the Congo Basin to 
catalogue the wildlife there. We read about it in the National 
Geographic in three issues. We have some copies here. I was 
introduced to him through the magazine of the National 
Geographic before I had the privilege of meeting him in person.
    He is arguably the leading expert and conservationist on 
the Congo Basin today. I want to thank him especially for 
flying such a long distance to be here today from Africa so we 
could have this hearing, and we look forward very much to his 
testimony and using this hearing and the coming of the 
administration witnesses to signal the Congress' support for 
what is happening there and to get an update on it.
    Dr. Tony Mokombo--thank you very much for coming--directs 
the World Wildlife Fund's programs in Central America. We are 
grateful for the perspective he brings. He is from the Central 
African Republic. I know he has been very busy with grant 
writing and program management as WWF is stepping up to the 
challenge and participating in the Congo Basin Forest 
Partnership, and I am grateful he took some time to meet with 
us today.
    So, Dr. Fay, let us begin with you. We have looked forward 
to your coming, and we look forward to what you have to say.

  STATEMENT OF J. MICHAEL FAY, PH.D., CONSERVATION BIOLOGIST, 
                WILDERNESS CONSERVATION SOCIETY

    Dr. Fay. I was taking a shower last night, and I looked 
down at my feet, and they had dirt from the beach in Gabon. So 
I am fresh off the plane.
    Senator Alexander.  Did you stay in a hotel?
    Dr. Fay. No, I did not.
    Senator Alexander.  I did not think so.
    Dr. Fay. I thank you for having everyone here today to talk 
about the Congo Basin Forest Partnership, and I really did 
appreciate your last comments to the last panel about the 
deeper meaning of the Congo Basin Forest Partnership. My 
testimony is going to try to address that, because I do 
believe, as you do, that that is perhaps the crux of what we 
are talking about.
    The first time I met you, we talked about the Smoky 
Mountains National Park and how that really has set that region 
apart and how it has really shifted the way people think, the 
way that people act, the way people think about land use 
management, resource management, and the benefits from doing 
that. So I do believe that you certainly have a very close 
understanding of what we are talking about.
    I am a little bit jealous that you only walked 1,000 miles 
on pavement and you became Governor and Senator. I walked 2,000 
miles through forests, and I am still kicking around the 
forests of Central Africa. But some guys have all the luck.
    Senator Alexander.  I think it may be you.
    Dr. Fay. Parks do not just protect species. Parks change 
land use patterns. They influence government and private sector 
policy concerning the management of natural resources. They 
form the nucleus for an ethic of resource management, is what 
they really do. In fact, in most cases it is just a kind of a 
modern replacement of a similar traditional system of land use 
that has been lost with development and movement of people. 
Certainly a few hundred years ago in Africa if you ventured 
into someone else's territory and you started using resources 
that were not yours, you were in big trouble. In fact, you were 
probably dead. It is very important to recognize that land use 
management is not something new in Africa.
    I have probably logged more miles walking long distances 
and learning about the forests of Central Africa than just 
about anybody else, and that is not bragging; it is just fact. 
Over the decades I have seen one thing that is very clear, that 
the land is quickly being colonized by human beings. It is 
often foreigners and they are after resources. They are after 
wood, they are after minerals, they are after oil, they are 
after wildlife, they are after fish, they are after arable 
land.
    But today exploitation is mechanized; it is powerful; it is 
lightning-fast; and it is global. These processes that have 
been ongoing ever since human beings have existed are just 
happening at an incredibly accelerated pace nowadays.
    One thing that has not changed over all that time, which is 
kind of surprising, is that when frontier areas are opened for 
land use there is usually little regard for the environment, 
sustainability, for the local people. Waste is completely 
accepted as part of doing business. Over the past 2 decades, 
about 70 percent of the forests of Gabon and Congo have been 
given up to logging companies, mostly Asian and European. Well 
over half the wood that is cut down for lumber is abandoned or 
burned. Wildlife populations are reduced, and local human 
populations become impoverished.
    We heard about Nigeria earlier. You go to these oil areas, 
and there is unbelievable poverty in these places. Local people 
do not benefit.
    It is no better in the oceans. In Gabon there are currently 
over 100 trawler boats operating off the coast of that country. 
Some 64 of those boats come from the European Union. Under an 
agreement with the European Union, those boats never dock in 
Gabon. They are never seen in Gabon. Not a single one of those 
fish ever reaches the country. Fish populations are being 
hammered in Central Africa, because it is one of those last 
frontiers, and there is almost no control.
    Only about 3 days ago, I was flying over small boats off 
the coast of Gabon off Loango National Park where we are 
working, and they have these long boats they call barracudas. 
They are usually manned by Nigerians and Beninois, mostly 
because there are almost no fish left in either Nigeria or in 
Benin off the coasts. What we saw on the bow of those boats was 
hundreds of shark fins, hundreds drying on the bow of these 
boats.
    You can hardly believe your eyes, and you are flying by, 
and I see the name of one of these boats plastered on the side 
of it, and it says ``Fear Tomorrow.'' That is the name of the 
boat, appropriately named. There is no question about that.
    This kind of waste in frontier areas is understandable, but 
it cannot go on for very long before it really does endanger 
the future of these countries.
    In 1903 Teddy Roosevelt made a trip across the United 
States, and he visited Yellowstone amongst other places. He 
witnessed the same kind of abuse of the landscape, people 
expanding outward to exploit every natural resource they found. 
If you can imagine then, it is estimated that there were only 
about 200,000 whitetail deer left in the United States, the 
entire continental United States, about 200,000 left. They were 
virtually exterminated, whitetail deer. Today, they are in 
almost every suburban garden in America.
    The trip was not really about changing Roosevelt's 
attitudes about nature or the outdoors. In fact, he was a 
longstanding outdoorsman, and he kind of thought Muir was a 
little bit, you know, certainly too far left. What it really 
meant to him was that it was a crisis. He needed to do 
something. He needed to act. He needed to convince the American 
people that natural resource management was a national 
priority. Ecosystems and indigenous populations are bowled over 
in this process of resource exploitation.
    During Teddy Roosevelt's tenure, he made the creation of 
230 million acres of protected areas a cornerstone of his 
preoccupation. That is a lot of land, 230 million acres. What 
this leadership did in the case of Roosevelt was shift the 
ethos of this country. It made everyone start to think about 
natural resource management. It put it right on the forefront.
    Teddy Roosevelt was very good about that. If he thought 
something was important, he was not afraid to just put it right 
out there and do it. What it really did is it launched a 
national debate. That national debate continues today. I mean, 
we see snowmobiles at Denali. That is something that is 
reaching Congress. Logging in national forests, that has been a 
major debate this year. ANWR, certainly. This is a debate that 
continues every day, all day.
    In the Congo Basin we have an opportunity to consolidate 
what will be one of the most important national park systems in 
the world, over 25 million acres, and one of the richest areas 
for biodiversity on the planet. These parks will preserve, just 
as Yosemite and Yellowstone, innumerable species and beautiful 
landscapes.
    But like Teddy Roosevelt, we have the opportunity to do 
much more. We have the opportunity to shift how entire 
landscapes are developed to assure that future generations can 
sustain and enhance their lives. That is what we are talking 
about.
    The Congo Basin Forest Partnership is, in my opinion, set 
up to exercise that model. It is not just about protecting 
national parks; it is not just about protecting logging 
concessions. It is to bring this issue to the forefront at the 
national level. The way to do that is not by talking about it 
in capital cities. It is not by centralizing educational 
systems and putting people through university. It is by working 
on the ground. It is by working in particular with local people 
in developing sustainable systems that actually protect their 
resources from wanton destruction by others.
    We have come a very long way with the CBFP in a very short 
amount of time. It was unimaginable only a few months ago that 
we would get the U.S. Government to rally behind something like 
this. One telling thing is that it has brought organizations 
like WWF, WCS, CI, and AWF together for the first time. USAID 
should get a medal for that already, because that is unheard 
of.
    The benefits of the CBFP have already started to accrue. 
Others have already spoken about the efforts of Gabon to create 
a system of 13 national parks covering 7.5 million acres. But 
more importantly, what that has done in Gabon is it has 
launched that national debate. It has appeared on a regular 
basis in the national newspaper. It is on TV. Everybody is 
talking about national parks. Everybody is talking about 
forestry management. Everybody is talking about that kind of 
division of that resource base, is it equitable, is it good, is 
it bad?
    It has created conflict between ministries now. It is 
really elevating, and it is that groundwork that is percolating 
up. It is not this top-down kind of thing. It is a groundswell.
    One good example that I have concerning these boats is, I 
have been concentrating in Loango National Park over the past 
few months in coastal Gabon, and one of the big problems there 
is these fishing boats. These trawlers come within hundreds of 
meters of the beach. They sit at the exits, the outlets for all 
the major lagoons, and they sweep up all the fish, because 
these fish go into these inlets. They sit at the mouth of these 
inlets, because that is where all the food is.
    These guys, the limit is five kilometers; they come within 
hundreds of meters literally of the beach, and they scoop up 
all of these fish. Entire species do not even come in these 
inlets any more. There used to be a huge dorado influx at 
certain seasons in the Segala Inlet where I am working. The 
local people there have not seen dorado for years. But 10 years 
ago they were abundant. These people did not have to worry 
about where the fish were coming from.
    Just in the past few months we have been using our airplane 
to fly over boats, dive bomb boats, take pictures of them, show 
them in the backdrop with the coast right there, get GPS 
locations of these boats. We have submitted over 30 reports to 
the government in the past 3 months. Lo and behold, those 
trawler boats are now gone. We do not see a single trawler. We 
have not seen a single trawler boat in the past 6 weeks at one 
of those inlets.
    Again, this has launched a major debate at the national 
level. It has been in the newspaper twice in the last 6 weeks. 
It is the talk of the town. The guys that are the perpetrators 
are kind of jockeying right now, but we are making real change 
there very quickly.
    As the CBFP unfolds and we see all those kinds of 
activities unfolding on the landscapes, we will see these 
things getting to the national level every single day. It is an 
incredibly important project. I am not going to talk about the 
details, but we are talking about 25 million acres of national 
parks. We are talking about building infrastructure and 
management personnel in these places. We are talking about 
launching ecotourism. We are talking about managed logging 
concessions, a thousand personnel, etcetera, etcetera.
    The immediate benefits are obvious, but what is going to be 
even more important is we are going to be bringing to the 
forefront this notion that resource management is incredibly 
important. This is a worldwide problem. Like Teddy Roosevelt 
said, natural resource management is the problem that underlies 
all other problems in the management of a nation, especially a 
young nation.
    Fifteen to twenty million dollars a year for the CBFP is a 
good start, but we should invest more. If we are going to be 
investing billions and billions in managing AIDS, we should be 
spending billions and billions in natural resource management, 
because ultimately they are equally important.
    We have not been paying enough attention to this broader 
partnership. We have not brought the Europeans in sufficiently. 
We have not brought in the African nations sufficiently. 
Congress and the State Department can be effective in doing 
that, but we have to up that effort.
    We also and most importantly have to demonstrate to African 
nations that we are absolutely committed to the long haul here, 
that we are committed to working on the ground and getting 
these things going, not only in these 11 landscapes, but 
ultimately in many, many places.
    NGO's benefiting from CBFP should be required to show how 
much money they are spending and where they are spending it on 
the ground. Congo Basin countries benefiting from CBFP should 
be trying to address a set of objective deliverables.
    So in short, and I am going to finish now, this is for me a 
dream come true. It was one of the main reasons why I took that 
long walk through the forest, other than really enjoying that 
time I spent there. But you know, when you spend that amount of 
time walking through the forest you recognize the unbelievably 
rich wealth that is there, and to see it being destroyed for 
just careless reasons is in my opinion unacceptable, and we can 
have a major impact on that.
    Thank you.

    [The prepared statement of Dr. Fay follows:]

                  Prepared Statement of J. Michael Fay

    Thank you Mr. Chairman. I'd like to thank Chairman Alexander, and 
Senator Feingold for bringing us together today to talk about the Congo 
Basin Forest Partnership and sustainable development in Africa. Senator 
Alexander when we first spoke you told me about your 1000 mile walk 
across Tennessee and the impact it had on your impressions of what was 
important in your State. Then we talked about your homestead on the 
edge of the Great Smoky Mountains National Park and the ways that this 
park has shifted people's regard for resources and their management in 
Tennessee, so I feel a bit like I am preaching to the choir.
    Historically, if you look around the planet you would find that 
national parks quickly become local and national treasures, if 
government provides the structures that make those parks positive 
forces in local sustainable development. I spent last week in Gabon 
with a Belgian friend who was born in Rwanda and has worked in 
conservation his entire life. I asked him about Akagera National Park, 
which is a substantial chunk of Rwanda. He said while it is under 
increasing pressure and has lost some ground over the decades it is 
still there and it is not overrun. Rwanda has over 600 people/km sq. It 
may have the highest human population density on earth for a country 
that depends almost entirely on the bounty of the land for its 
survival. This park is certainly a tribute to the fact that even 
nations like Rwanda, that has experienced considerable turmoil over the 
decades, still finds a place for protected areas. I think that most 
would agree that in Rwanda the parks there have had a fundamental 
impact on the policies of that nation in the way it manages natural 
resources.
    Parks don't just protect species. Parks change patterns of land-
use, and they influence government and private sector policy concerning 
the management of natural resources. They form a nucleus for an ethic 
of resource management. In fact in most cases it is just a modern 
replacement of similar traditional systems of land-use that are lost 
with development and movement of people.
    A few weeks ago I had my 25th anniversary in Africa. In fact Tony 
here has been a friend of mine since 1980. For most of that time I've 
worked to set up national parks as the nuclei for land-use management. 
Africa is my home and I do not regard this work as frivolous or 
irrelevant to basic human needs, or poverty aleviation, quite the 
opposite. In my book water, fertile soils, animals, and trees are more 
fundamental needs than health care, education or roads. Senator 
Feingold you come from the land of Aldo Leopold. I am sure that the 
residents of Wisconsin and you would agree that natural resource 
management is a fundamental for sustainable
development.
    I think I have probably logged more miles walking long distances 
and learning about the forests of Central Africa than just about 
anybody. I recognize that I am one of the most fortunate people on the 
planet to have witnessed such abundance in nature. Over the decades of 
living in the Congo Basin a simple observation to make is that the land 
is rapidly being colonized by human beings. When you read the history 
books I can imagine that it is much like what happened in this country 
in the 18th and 19th centuries: people expanding across the landscape 
looking to exploit resources. It is often foreigners and the resources 
they're after are wood, minerals, oil, fish and arable land. Today 
though, exploitation is highly mechanized, it is powerful, it is 
lightening fast and it is global. One thing that hasn't changed though, 
in frontier areas opened for resource use, there is little regard for 
the environment, sustainability, or for local people and waste is 
accepted as part of doing business. In the past two decades over 70% of 
the forest in Gabon and Congo has been given to logging companies, 
mostly European and Asian. Well over \1/2\ of the wood that is cut down 
for lumber is abandoned or burned, wildlife populations are very 
reduced, and local human populations become impoverished. It is no 
better in the oceans, in Gabon alone there are over 50 locally operated 
trawler boats and some 64 other trawlers that operate directly out of 
the European Union which never dock in Gabon. Fish populations are 
being hammered in Central Africa because it is one of the last 
frontiers. For the past six months I have been doing a lot flying over 
these armies of trawlers, they often operate within spitting distance 
of the beach. Only two days ago I was flying over smaller boats from 
Nigeria and Benin with hundreds of shark fins drying on the bows where 
tons of sharks are discarded daily. This kind of waste is 
understandable for a certain amount of time but letting it go too long 
is very dangerous for nations.
    In 1903 Theodore Roosevelt made a trip across the United States 
where he visited Yellowstone National Park and a lot of other frontier 
locations. He witnessed massive abuse of the landscape, people 
expanding outward to exploit every natural resource they found. If you 
can imagine at this time they estimate that there were only about 
200,000 white-tailed deer left in the entire continental USA. This trip 
and others changed not only Roosevelt's attitudes about nature and the 
outdoors, in fact he thought Muir was way too liberal; witnessing 
massive waste of natural resources forced this President to act very 
decisively on natural resource management when most people thought 
there were more pressing development needs.
    A speech Roosevelt made on Arbor day 1907 to the school children of 
the United States captures his thoughts on what became policy for this 
President:

          We of an older generation can get along with what we have, 
        though with growing hardship; but in your full manhood and 
        womanhood you will want what nature once so bountifully 
        supplied and man so thoughtlessly destroyed; and because of 
        that want you will reproach us, not for what we have used, but 
        for what we have wasted. . . . So any nation which in its youth 
        lives only for the day, reaps without sowing, and consumes 
        without husbanding, must expect the penalty of the prodigal 
        whose labor could with difficulty find him the bare means of 
        life.

    During his presidency Teddy Roosevelt, with the Congress, made the 
creation of 230,000,000 acres of protected areas the cornerstone of 
this preoccupation. More importantly, what this leadership did, was to 
fully integrate natural resource stewardship into the basic principles 
of our national policies and ethos. It is always a debate, but it is a 
debate that has been part of land-use decision-making in this country 
for a century.
    In the Congo Basin today we have a historic opportunity to 
consolidate what will be one of the world's most important national 
park systems of over 25 million acres in one of the richest areas in 
terms of biodiversity on the planet. These parks will preserve, just as 
Yosemite and Yellowstone have for well over a century in this country, 
innumerable species and beautiful landscapes. But, like Teddy 
Roosevelt, we have the opportunity to do much more. We have an 
opportunity to shift how entire landscapes are developed to assure that 
future generations can sustain and enhance their lives.
    The Congo Basin Forest Partnership is an opportunity for this broad 
coalition of governments and NGOs to contribute substantially to 
putting in place a transformative model that integrates natural 
resource management into the foundation of development. The model 
starts with the identification of landscapes where land-use management 
systems can be put in place before the arrival of large-scale 
industrial resource exploitation and human expansion. This model does 
not call for the curtailment of resource use, only for well-reasoned 
land-use and resource management. It requires a ground-up plan that 
includes the creation and management of core national parks to protect 
the ``biodiversity mother load,'' integrated with land-use management 
in exploitation zones in the surrounding landscapes that maximize 
benefits for local people. In my opinion in Central Africa any progress 
with AIDS, Democracy, or Conflict Resolution, without resolving the 
problems of resource exploitation will be fleeting. In the words of 
Roosevelt ``the conservation of natural resources is the fundamental 
problem that underlies all other problems.'' For me this is what the 
CBFP is attempting to do to address this fundamental problem. If we 
don't there is huge risk that wasteful natural resource depletion will 
generate more countries that find themselves in need of direct and 
constant aid for their survival. Natural resource management must lie 
at the foundation of poverty alleviation, health, education, private 
investment and law and order. We only have to look as far as Liberia 
where rampant logging by fly by night operators has contributed 
significantly to the current mess. Our efforts in that country should 
be coupled with efforts to instill an ethic of natural resource 
management.
    I am not alone, many organizations, American and European, are 
working with national governments on projects on the ground that are in 
various stages of implementing this model. All of the major US 
conservation organizations working on the ground in the Congo Basin 
(WWF, WCS, AWF and CI) are united in the belief that these ground-up 
projects provide a solid basis for sustainable development.
    In my opinion the CBFP is a model that should be tried all over the 
place. It would seem that USAID are applying a similar approach to the 
delta of the Tigris and Euphrates and the marsh Arabs which have seen 
their natural resource base destroyed by Saddam. That should make 
Thessiger happy.
    We have come a long with the concept of the CBFP in a short amount 
of time. It shows that we can make huge shifts in our national foreign 
policy vis a vis sustainable development if we wish. This policy shift 
has been encouraged by Secretary of State Powell when he held a 
conservation round table in the forest of Gabon in Sept. of last year. 
Assistants Secretaries of State Kansteiner and Turner and Mr. Patrick 
Cronin and Connie Newman in USAID are to be congratulated for their
vision.
    Benefits of this policy shift are already paying off well before we 
have even begun the CBFP. Over the past year a combined effort of NGOs, 
the State Dept., and members of the US Congress have been working with 
the Government of Gabon and President Omar Bongo to successfully create 
a system of 13 national parks of over 7.5 million acres. I was visited 
last week by Congressman Bill Archer in Gabon who has been to central 
Africa several times since 1997. He spent four days in Loango National 
Park with me and relayed his support to the President for his bold 
initiative of creating 13 parks. No doubt this move has launched a 
debate in Gabon about natural resource management, sustainability and 
benefits for local people. President Sassou and other Presidents in the 
region are also strong advocates for the CBFP and are gearing up for 
fundamental shifts in policy as well. We hope to be seeing President 
Bongo and President Sassou in Yellowstone in September to follow a bit 
in the footsteps of Teddy Roosevelt.
    In the past two months we have been shaking up the fishing industry 
in Gabon. We dive bomb the boats with an airplane and take photos of 
the vessel and the surf, we get their names and GPS locations. We are 
collaborating with the officials in charge to enforce the law and are 
in the process of signing a collaborative agreement for fisheries law 
enforcement. We are pushing trawlers back to legal limits. These guys 
are getting called in and curiously we have seen a huge reduction in 
illegal fishing where I am working in the Loango National Park. Local 
people are seeing dorado come into the inlet for the first time in a 
few years, they are joining forces in the effort. This has launched a 
national debate, some people are losing out but many more are 
benefiting. Yeah there are behind the scenes counter efforts on going. 
But we are being strongly encouraged by local people right up to the 
presidency. The nation is abuzz with talk of the abuses of these boats. 
Pictures of illegal boats have appeared in the papers twice in past 2 
months. The President is encouraging this effort because many are 
starting to realize the relationship between the vital importance of 
this resource to the nation and diminishing stocks. They don't have a 
choice if they want to have fish in ten years. The creation of the 
national parks has created a similar stir in the logging industry and 
oil industry and most applaud the action while a few have been hurt. 
Local people are starting to recognize the importance of forests for 
themselves. We had our first local consultation a couple of weeks ago 
in SE Gabon for the Plateau Bateke National Park. It is launching a 
debate about conservation locally. The results of those meetings were 
in the national news. Just in the past 6 months CBFP actions have been 
in the headlines in the national newspaper many many times. It is the 
talk of the town.
    What is important to realize is that the work has just begun. The 
United States govt. has sent several trips to the region in the past 
year to demonstrate their diplomatic support of these policies. Now we 
absolutely cannot fail in our commitment to help Gabon, the Congos, and 
the other countries in the region to build infrastructure and capacity 
for management, help shift land-use and resource management practices, 
and increase benefits for local people. This is going to take 
significant resources, it is going to take lots of people working close 
to the ground with local people, it is going to take single-minded 
tenacity that is determined to get the job done despite the pitfalls 
and hurdles.
    So what can we can expect as deliverables from the Congo Basin 
Forest Partnership over the next ten years?

  <bullet> over 25 million acres of permanent national parks in six 
        Congo Basin countries,

  <bullet> over 20 functional national parks with infrastructure, 
        management personnel and a permanent place in the national 
        landscape.

  <bullet> over 50 million acres of managed logging concessions and 
        other lands (including coastal waters) surrounding protected 
        areas,

  <bullet> over 1000 personnel working in natural resource management 
        in the Basin,

  <bullet> over 300 villages in and around the landscapes participating 
        actively in and benefiting from resource management,

  <bullet> increased sustainability for parks from tourism and other 
        revenue streams, and national government participation,

  <bullet> $60 million dollars in private funds as a match to U.S. 
        Government investment, and

  <bullet> significantly increased management in domains like fisheries 
        and forestry management.

    The fundamental benefits of this project will be:

  <bullet> creation of viable and operational national reserve systems,

  <bullet> reduced rates of deforestation and biodiversity loss,

  <bullet> reductions of illegal and abusive logging practices,

  <bullet> reductions in illegal trade,

  <bullet> increased civil society participation in decision making,

  <bullet> increased U.S. influence in the Congo Basin,

  <bullet> better governance and transparency,

  <bullet> increased security over large areas, and

  <bullet> sustainable development based on renewable outputs.


    What I ask of Congress today is to assure the following: 15, 20 
million dollars a year is a good start but I think we could easily 
invest 50 million a year in the Congo Basin alone and it would be a 
great investment. Even at 50 million it would be approximately 1000 
times less than we are currently spending in Iraq. I urge you to press 
for funding in full for a substantial authorization. If it is paying 
off but we need to maintain the momentum and give this effort legs. I 
would encourage Congress to increase this kind of investment on a scale 
on par with what we are to spend on HIV/AIDs, I believe that its 
importance is similar in magnitude. Let's see where we are in a couple 
of years and then kick it up to 50 million. Liberia has cost billions 
over the past 15 years.

    My perspective is that we have not paid enough attention to 
building a strong and coherent broader Partnership. This is absolutely 
essential if we are to succeed. We need to rally our European allies to 
be leaders in this effort. My impression is that they are not buying in 
as we hoped. This is going to require strong leadership and effort from 
the Dept. of State.
    We need to demonstrate to African nations that we are absolutely 
committed to a long term process of assistance to bring our plans to 
fruition. This is going require a rigorous, nose to the grindstone 
dirty boot approach. Nothing can replace that. U.S. Government funding 
should be restricted to on-the-ground conservation that directly 
supports protected area and land (sea)-use management projects in the 
11 designated landscapes. This needs to include construction of 
infrastructure, which we are told will not be allowed under the current 
agreement for bureaucratic reasons. We can not allow ourselves to drift 
into the notion that spending the money on studies, meetings and 
centralized higher education will produce the desired result.
    NGOs benefiting to receive funding under CBFP should be required to 
show exactly how much money they get to the ground which needs to 
include a substantial matching contribution.
    Congo Basin Countries benefiting from the CBFP should agree to 
address a number of objective deliverables. Funding should be dependent 
on progress such that countries that take risks to enact such a process 
also reap the maximum benefits.
    I don't think that Teddy Roosevelt could have ever imagined that 
over 300 million people would enter the national parks in the United 
States in 2003. This is a tribute to his vision. I believe that, if we 
get it right, the CBFP will be one of the most successful programs ever 
undertaken by USAID in our search for a model of sustainable 
development. Land-use and resource management must be at the core. 
Please help to put the weight of the U.S. Government behind this 
effort.
    Thank you

    Senator Alexander.  Thank you, Dr. Fay.
    Mr. Mokombo, thank you for coming.

  STATEMENT OF TONY MOKOMBO, SENIOR PROGRAM OFFICER, WEST AND 
CENTRAL AFRICA AND MADAGASCAR ENDANGERED SPECIES PROGRAM, WORLD 
                         WILDLIFE FUND

    Mr. Mokombo. Thank you, Mr. Chairman. Thank you very much 
for inviting me to this table here. This is another learning 
set for me. I have stepped in here in the United States, and I 
am seeing how things are going around, how you are dealing with 
this issue. The business and the leadership that the World 
Wildlife Fund has is the reflection of what the United States 
is doing worldwide.
    I would like to thank the Zoological Society of Milwaukee 
that is here actually presently. We have been working with them 
in the conservation initiative also, we have been working with 
them.
    As you introduced me, that was a great honor to elevate me 
to that position. I am the Senior Program Officer for West and 
Central Africa, and I am from Central African Republic, and it 
is a great honor for me to say that the conservation project 
started in my country, the Central African Republic, in the 
southwestern part of the country, has expanded to become a 
model for the entire
region.
    Before further development of my testimony, I would like to 
seize this opportunity to thank the United States of America's 
government for its commitment and efforts to assist my fellow 
Central Africans and I to better conserve and save the wealth 
of biodiversity for the present and future generations through 
its governmental agencies, such as the U.S. Fish and Wildlife 
Service, the U.S. Forest Service, State Department, and the 
USAID.
    This said, Mr. Chairman, the charge for this subcommittee 
hearing is to answer the questions, why is the Congo Basin 
Partnership needed, what is World Wildlife Fund's role in this 
partnership, and how will the grant be implemented? About the 
first question, Mr. Chairman, there is a saying in the Bantu 
language which is: One finger cannot pick up lice from the 
head, inside of the hair. This means that one organization 
alone within this huge mass of forested area in Central Africa 
would not be able to achieve the goal of conservation there.
    So this partnership represents a defining moment for the 
Congo Basin. The stars are aligned and it is vital that we 
seize this historic opportunity to save the Congo Basin Forest. 
This is a unique opportunity for all of us to match the Congo 
Basin political will as expressed in the Yaounde Declaration 
with the U.S. political will to support the conservation of the 
biodiversity in the region. The United States' timely show of 
financial and moral commitment helped tilt the balance in favor 
of conservation.
    For many years, conservation organizations such as World 
Wildlife Fund, Wildlife Conservation Society, just to name 
these two, have struggled, not always successfully, to involve 
politicians, stakeholders, elites, and the local populations 
into the region's conservation efforts. Unfortunately, each 
time they took one step forward, two steps are taken back.
    This partnership not only reinforces the will and 
commitment of the Central African governments to conserve the 
rich biodiversity of the region, but has consolidated the 
collaboration among conservation organizations in the Congo 
Basin. The NGO's, the World Wildlife Fund, the Wildlife 
Conservation Society, and Conservation International, combined 
their strength to develop the Congo Basin Partnership, whereas 
previously they were competitors, they were fighting.
    About the value of the Congo Basin, I do not think that I 
will have to go back to this because you know more of my 
country than I do, you introduced it so very well. But what I 
wanted to say is that this tremendous forested area has been 
threatened by illegal logging, agriculture, bush meat trade, 
and the economic crisis that the region has gone through 
lately. The good thing is it is not too late. There are two 
good opportunities that we have to make the difference.
    The Yaounde Summit. The Yaounde Summit created a unique 
opportunity for the governments of the Congo Basin countries to 
make commitments to forest conservation. This summit has 
elevated forest conservation and management to one of the most
important issues in the sub-region and as such has marked a 
turn-
ing point in political commitment to forest conservation in 
Central
Africa.
    Since the Yaounde Summit, 70,000 square kilometers of new 
protected areas have been created, attesting to the seriousness 
of these commitments. The ministers in charge of forests in 
Central Africa, charged with the implementation of the Yaounde 
Declaration, in a collaborative body known as COMIFAC, which 
stands for the Conference of Ministers in charge of Forests in 
Central Africa, which is the council in charge of the forest in 
Central Africa, adopted the World Wildlife Fund-facilitated 
biodiversity vision for the Congo Basin Forest as the blueprint 
for conservation in the region and committed themselves to: 
conserve 10 percent of forested areas as a protected area; 
trans-border initiatives; the request for donors to address 
bush meat trades.
    Gabon, for example, has set aside, in light of all the 
outcomes of Mike's trip, field trip, mega-transect, has set 
aside 13 national parks, and all this is under this structure. 
They have called to partnership with all stakeholders for 
sustainable management of the resources.
    The Congo Basin Forest Partnership is the second 
opportunity. This partnership will promote economic 
development, alleviate poverty, improve governance and natural 
resource conservation in the Congo Basin, it is the most 
strategic relationship to have in order to achieve conservation 
goals in the region. It has also brought together donors, 
governments, public and private organizations to work and save 
the Congo Basin.
    Since the Congo Basin is not only the lungs of the world, 
but supports globally significant biodiversity and maintains 
the global climate regime, hence mitigating global warming, 
there is a need for the world to invest in conserving this 
forested area. Due to the complexity of the conservation, a 3- 
to 5-year investment will only begin the process, and we 
Central Africans urge that Congo Basin Forest Partnership has a 
much longer term horizon.
    This joint effort to conserve these fantastic 11 landscapes 
that have been mentioned earlier, backed by a longer term 
investment, will create employment for park guards, tourist 
guides, and tourism development, and community-based 
conservation development. The sustainable forest management 
will lead to economic development. With a proper investment, 
Mr. Chairman, we can create a conservation-based economy to 
replace the current exploitation-based economy that is 
devastating my country's natural resources.
    What is the World Wildlife Fund's role in this partnership? 
Mr. Chairman, the World Wildlife Fund has played an 
unprecedented role in the region, influencing the political 
agenda to ensure that forest conservation is seen as a key 
policy issue for the governments of Central Africa. During the 
Yaounde Summit, World Wildlife Fund had called upon the Central 
African governments to collaborate across boundaries and work 
in partnership with international aid agencies so that the 
forest protection is implemented on the ground.
    Mr. Chairman, it took World Wildlife Fund years of 
perseverance and constant presence in the field to convince the 
Central Africans to join in protecting their heritage. If World 
Wildlife Fund had not been in my own home country, in light of 
all the political and social disturbances, I am sure that no 
elephants or gorillas would have been left in Central African 
Republic.
    World Wildlife Fund's long-term commitment has gained the 
confidence of its regional and national partners. World 
Wildlife Fund has been there in the good and bad times to help 
my fellow Central Africans and I become aware of the importance 
of conserving the biodiversity.
    After the Yaounde Summit, the six countries of the Congo 
Basin came back to this organization to assist them in 
facilitating the implementation of their commitments. World 
Wildlife Fund helped develop the conservation plan for the 
Congo Basin Forest by bringing together over 200 scientists 
from the region and elsewhere who defined areas of biological 
importance for different species groups. The 11 priority forest 
landscapes that have formed the basis of the Congo Basin Forest 
Partnership were identified in this process.
    These landscapes cover species, habitat, and ecological 
process values of the Congo Basin such that effective 
conservation in these areas will ensure that these values will 
persist over the long term.
    In my prepared testimony I give a brief overview of the 
World Wildlife Fund's program, global program in the document, 
so I will not extend on that. But I would like to give a quick, 
brief history of World Wildlife Fund in the region.
    Senator Alexander.  Mr. Mokombo, we are going to have to 
wind the hearing up in a few minutes. So if you could bring 
your testimony--if you could summarize what you are saying. I 
have a few questions I wanted to ask both you and Dr. Fay 
before we end.
    Mr. Mokombo. What I just wanted to give an example of how 
World Wildlife Fund operated in my country. World Wildlife Fund 
started working, went in the field, on the ground, and working 
in parallel at the governmental level. So the collaboration 
went all the way through from the bottom all the way to the 
top. While we were working on the ground field, the government 
through its Minister of Water and Forest started talking to his 
fellow ministers of Cameroon and Congo (Brazzaville) in order 
to join efforts to conserve what has become the Dzanga Tri-
National Park in the region, which is the backbone of this 
landscapes strategy.
    About the grant implementation. First, World Wildlife Fund 
and Wildlife Conservation Society, African Wildlife Foundation, 
and Conservation International have carefully worked out a team 
arrangement over the last few months through a series of 
meetings here in the United States and in the region. The teams 
are based on competitive advantage and real experience.
    So the teams are going to work. The World Wildlife Fund 
will issue a subcontract with other U.S.-based NGO's, such as 
the Zoological Society of Milwaukee, the Bonobo Conservation, 
Innovation Resource Management, and also we hope to work with 
the United States Government agencies in the same landscapes, 
such as the Smithsonian Institution, the U.S. Forest Service, 
and the U.S. Fish and Wildlife Service.
    Second, World Wildlife Fund and Wildlife Conservation 
Society have administered in Cameroon, Central African 
Republic, and the Congo NGO action grants with funding support 
from CARPE and the MacArthur Foundation. They subcontracted and 
provided selected and motivated local African NGO's with 
resources to test and develop their capacity.
    Let me assure you and the members of the subcommittee that 
the grant implementation will be very smooth. The USAID funding 
mechanism already in place is a great machine to disburse 
grants to partners of the Congo Basin.
    Mr. Chairman, members of the Subcommittee on African 
Affairs, and guests of honor, the last 3 years have seen a 
dramatic change in Central Africans' perception of the 
importance of biodiversity conservation. This is an 
unprecedented moment for the Congo Basin. While the stars are 
aligned, and along the United States Government's will to 
foster this partnership and bring in other partners, it is 
vital that we seize this opportunity to save the Congo Basin 
Forest.
    The only concern that I have is as follows: Is the 3-year 
program enough to achieve the goals of the CBFP? When I 
consider the socioeconomic problems that have hampered Central 
Africa and the greater number of people who still live in 
abject poverty, I say to myself, if only potential partners 
will extend this program over a period of 10 years with new and 
increased resources that will be very much appreciated by me 
and my peers.
    On the behalf of my country, and the forest people of the 
Congo Basin, and as well the World Wildlife Fund, Mr. Chairman, 
members of the subcommittee, NGO's represented here, guests of 
honor, thank you very much for your attention.

    [The prepared statement of Mr. Mokombo follows:]

                   Prepared Statement of Tony Mokombo

                     SAVING THE CONGO BASIN FORESTS

    Mr. Chairman and members of the subcommittee, what a privilege for 
``the Tallest pygmy'' to testify before you today. I am Tony Mokombo, 
Senior Program Officer for the West and Central Africa and Madagascar 
Endangered Spaces Program at the World Wildlife Fund. I am from Central 
African Republic located in the heart of central Africa between the 
Democratic Republic of Congo and Chad.
    We are here to discuss the Congo Basin Partnership and hence the 
future of the people in Central Africa and particularly those of the 
Congo Basin. Before further development of the subject I would like 
first to seize this opportunity to thank the United States of America's 
government for its constant effort to assist my fellow Central Africans 
and I to better conserve and save our wealth of biodiversity for the 
present and future generations through its governmental agencies such 
as the United States Fish and Wildlife Service (USFWS), the United 
States Forest Service (USFS), and the United States Agency for 
International Development (USAID).
    This said, Mr. Chairman, the charge for this Subcommittee hearing 
is to answer the questions, ``Why is the Congo Basin Partnership 
needed? What is WWF's role in the partnership? And How will the grant 
be implemented?''

           WHY IS THE CONGO BASIN FOREST PARTNERSHIP NEEDED?

    Mr. Chairman, this partnership represents a defining moment for the 
Congo Basin. The stars are aligned and it's vital that we seize this 
historic opportunity to save the Congo Basin Forests. This is a unique 
opportunity for all of us to match the Congo Basin Political will with 
the U.S. political will to support the conservation of the biodiversity 
in the region. The U.S.'s timely show of financial and moral commitment 
helped tilt the balance in favor of conservation. For many years, 
conservation organizations, such as World Wildlife Fund, World 
Conservation Society, have struggled--not always successfully--to 
involve politicians, stakeholders, elite and the local populations into 
the region's conservation efforts. Unfortunately each time they take 
one step forward, two steps are taken back.

   OVERVIEW OF THE CONGO BASIN: ITS VALUES, THREATS AND OPPORTUNITIES

    The Congo Basin is the second largest tropical forest block in the 
world and contains some of the richest biodiversity in Africa. The 
biodiversity of the Central Africa region is immensely wealthy, richly 
endowed with species, habitats and landscapes.
    In terms of vertebrate species diversity, the Congo Basin is 
rivaled only by South America and South East Asia, and is justly famous 
for its assemblage of savanna animal species and their predators. The 
forest bloc of Central Africa is a treasure house of over 10,000 unique plants; 1,000 birds and 400 mammals, among which we have 3,000 endemic 
plants, 42 endemic birds and 29 mammals. Many these endemic species are 
concentrated in the lowland forests and associated low hills at the 
eastern and western edges of the Basin. The Congo Basin Forests possess 
the most diverse assemblages of primates in Africa, including four 
species of Great Apes (two species of gorilla, bonobo and chimpanzee). 
The region's marine, freshwater and terrestrial biodiversity has the 
potential to provide significant--and sustainably managed--
inexhaustible benefits for its people, the vast majority of whom still 
rely directly on natural resources.
What is the Current Situation?
    Mr. Chairman, I had to leave my home-country to get a better 
understanding of what is happening under the canopy of our forested 
areas. In early 1990s, the international debate on global environmental 
problems led to the 1992 UN Conference on the Environment and 
Development. As the debate was defined by traditional North-South 
dynamics, we, Developing Countries suspected that the North was using 
the environment to impose further conditions on the terms of their 
economic development. We argued that much of the global environmental 
degradation was linked to Northern consumption patterns and the 
Northern countries had a historical responsibility to pay for 
mitigating environmentally destructive practices. Whereas the Developed 
countries believed that we in the South were interested in sustainable 
development only to leverage resource transfers from the developed 
world.
    Even though we had committed ourselves at that period of time to 
contribute to the environment and development of our region, much of 
the requested funds from people of good faith from the North were used 
to address other economic issues rather than tackling the root causes 
of the biodiversity loss of our heritage. We did not have a clue of 
what the consequences of biodiversity loss could be. We did not 
understand the problem and respond to the underlying socioeconomic root 
causes of such loss.
    Since the colonial era, which lasted for over 60 years, Central 
Africa has been principally a supplier of raw materials to other 
countries, in particular in forms of oil, minerals, timber and 
agricultural products. These resources that are fundamental to the 
future prospects for development within the region face a number of 
significant threats. Among the multitude of forces that had and have 
been driving biodiversity loss are:

  <bullet> unsustainable mining, mineral exploitation, and logging 
        practices;

  <bullet> clearing of forested land for subsistence agriculture and 
        hunting resulting from increased access provided by roads for 
        logging and mining;

  <bullet> and macroeconomic policies which may reinforce and 
        perpetuate unsustainable practices.

    Added to these threats are:

  <bullet> the poorly managed protected areas;

  <bullet> ineffective community based natural resource use;

  <bullet> weak processes and institutions: Ministries with 
        responsibility for planning, forest conservation and 
        management, wildlife and protected areas are often different, 
        poorly coordinated and their decisions may be over-ridden by 
        hierarchically superior authorities and institutions; and

  <bullet> regional institutions are even weaker with poor cooperation 
        between countries, a situation that is exploited by elements in 
        the logging industry and those who regard wildlife as a 
        commodity, such as ivory hunters and bush meat traders.
           what are the current opportunities in the region?

The Yaounde Summit
    The Yaounde Summit created a unique opportunity for the governments 
of the Congo Basin countries to make commitments to forest 
conservation. This Summit has elevated forest conservation and 
management to one of the most important issues in the sub-region and, 
as such, has marked a turning point in political commitment to forest 
conservation in Central Africa.
    On March 17, 1999, the Heads of State of six Central African 
countries, (Cameroon, Central African Republic, Chad, Congo, Equatorial 
Guinea and Gabon) met to discuss, at the highest political level, the 
problems of forest exploitation and protection in the region. This 
groundbreaking Yaounde Summit was hosted and chaired by the President 
of the Republic of Cameroon and co-chaired by his Royal Highness, 
Prince Phillip, President Emeritus of WWF. At the conclusion of the 
summit, they signed the Yaounde Declaration, which contains twelve 
specific commitments to forest conservation in the region. At the core 
of the Declaration is the recognition that protecting the region's 
forests requires a regional approach, coordinated policies and 
harmonized procedures, practices and legislation. The Democratic 
Republic of Congo subsequently ratified the Yaounde Declaration in June 
2002.
    The Yaounde Declaration was recognized by the United Nations 54th 
General Assembly (Resolution 54/214) as a mechanism to achieve 
sustainable forest management and conservation in Central Africa. The 
UN Resolution commends the Yaounde Declaration as a framework for 
ensuring forest conservation and sustainable management for 
implementation both by the countries of the region and also by the 
international community.

                     CONGO BASIN FOREST PARTNERSHIP

    Another opportunity is the Congo Basin Forest Partnership (CBFP), 
which we are discussing today, launched by the United States and South 
Africa along with 27 public and private partners at the World Summit on 
Sustainable Development (WSSD) in Johannesburg in September 2002. To 
this Congo Basin Forest Partnership, the US through its USAID-Central 
Africa Regional Program for Environment will make a substantial 
contribution.
    The goal of this partnership is to promote economic development, 
poverty alleviation, improved governance, and natural resources 
conservation in Congo Basin through support for a network of national 
parks and protected areas, well-managed forestry concessions, and 
assistance to communities who depend on the conservation of the 
outstanding forest and wildlife resources.
    Developing a coherent conservation strategy for such a huge part of 
the African continent, inhabited by such diversity of people, cultures, 
traditions and political systems, is a challenge in itself. The 
challenge becomes even greater as we consider the socio-economic 
problems that plague Central Africa. A great number of people still 
live in abject poverty and, in some countries, wars, civil unrest and 
political instability have or continue to hinder economic progress. It 
is a very crowded place--24 million people--and these factors, together 
with unfavorable trade and macro-economic policies, result in great 
pressures on the sub-region's forests, savannas, wetlands and marine 
ecosystems.
    Successful conservation in the Congo Basin therefore still presents 
enormous challenges. There is, however, still time in many places to 
take a different development path that integrates economic growth and 
conservation of special places and respect for traditional cultures.
    These places are the 11 landscapes that are the focus of the 
partners of the Congo Basin Forests, covering approximately 668,000 km2 
and containing 38 protected areas. Among the forests of Central Africa 
we can name the richly forested (but highly threatened) lands of Gabon, 
the unique sanctuary-like bai for elephants in Dzanga-Sangha (CAR), or 
the dramatically endemic forests of the Democratic Republic of Congo. 
Since the Congo Basin is not only the lungs of the world but supports 
globally significant biodiversity and maintains the global climate 
regime, hence mitigating global warming, there is a need for the world 
to invest in conserving this forested area.
    The joint efforts to conserve these 11 landscapes will create 
employment for park guards, tourism guides hence tourism development,
community based conservation development. The sustainable forest 
management will lead to economic development.

         WHAT IS WWF'S ROLE WITHIN THIS REGION AND PARTICULARLY
                    IN CONGO THE BASIN PARTNERSHIP?

    Mr. Chairman, the World Wildlife Fund played an unprecedented role 
in the region, influencing the political agenda to ensure that forest 
conservation is seen as a key policy issue for the governments of the 
Central Africa. During the Yaounde Summit, WWF called upon the Central 
African Governments to collaborate across boundaries and work in 
partnership with international aid agencies so that forest protection 
is implemented on the ground.
    WWF has facilitated the Yaounde process by developing a plan for 
the conservation of the Congo Basin Forest, starting at a biodiversity 
workshop in Libreville in March 2000. This workshop brought together 
over 200 scientists from the region and elsewhere, who defined areas of 
biological importance for different species groups. By a process of 
amalgamation and comparison with existing protected areas and intact 
forest habitats, 11 priority forest landscapes were identified that 
form the basis of the Congo Basin Forest Partnership. These landscapes 
aim to cover the species, habitats and ecological process values of the 
Congo Basin, such that effective conservation in these areas will 
ensure that these values persisted over the long term.
    The main process for operationalizing the biodiversity vision and 
the conservation of the 11 landscapes has been the Conference of 
Ministers in charge of Forests in Central Africa (COMIFAC). The first 
of these (COMIFAC I) was held in Yaounde in December 2000 and the 
second (COMIFAC II) in the same location in June 2002. At COMIFAC I, 
the Ministers adopted the WWF facilitated Biodiversity Vision for the 
Guinea-Congolian forests as the blueprint for conservation in the 
region; by this same act they committed themselves to the conservation 
of 10% of the forest habitat in protected areas. These commitments are 
expressed in the Conservation Convergence Plan, which outlines a need 
to achieve the following:

  <bullet> Gazettement of 10% of the territories as protected areas;

  <bullet> Transborder initiatives;

  <bullet> Request for donor support to address bushmeat trade;

  <bullet> Call to partnership with all stakeholders for sustainable 
        management of the
        resources.

Overview of WWF and its Global Program
    Since its inception in 1961, WWF, as the largest privately 
supported international conservation network in the world, has invested 
in over 13,100 projects in 157 countries. WWF directs its conservation 
efforts toward three global goals: protecting endangered spaces, saving 
endangered species and addressing global threats. From working to save 
the giant panda, tiger, and rhino to helping establish and manage parks 
and reserves worldwide, WWF has been a conservation leader for 40 
years.
    In all, the WWF Network has offices and partners in over 40 
countries around the world, working as a team toward an overall goal: 
``to halt and reverse the destruction of our natural environment.''

WWF's Global Program
    WWF's primary objective is to conserve globally important 
terrestrial, freshwater and marine habitats and their plant and animal 
communities. However, conservation resources are limited, and we cannot 
hope to save everything, everywhere. So we must set priorities while 
trying to ensure that examples of all the world's diverse ecosystems 
are conserved. These examples include areas especially rich in overall 
species diversity, areas with species found nowhere else, and areas 
that contain unique assemblages of animals and plants.
    WWF has identified around two hundred priorities of these important 
regions across the globe. They are called the ``Global 200 
Ecoregions.'' Ecologists consider that almost half of terrestrial 
ecoregions are endangered, some critically so, while a further 29% are 
vulnerable. More than 40 of the Global 200 ecoregions occur in Africa 
and around its shores. The WWF Africa & Madagascar Program (AMP) has 
for many years focused its attention on four broad habitat types: 
forests, savannas, freshwater wetlands, and coastal and marine 
habitats. As we enter the new millennium, the AMP is `fine-tuning' its 
habitat conservation efforts to those ecoregions where action is most 
urgently needed. WWF has identified the Western Congo Basin Moist 
Forest and Congo Basin Forest ecoregions as conservation priorities.

WWF History in Central Africa
    For more than 20 years, WWF has been supporting the creation, 
development and management of conservation programs within Central 
Africa especially in Central African Republic (CAR), Gabon, Cameroon 
and DRC. WWF has signed a country agreement with the Governments of 
each of those countries, most recently in DRC in 2001, where we are in 
the process of reinforcing our presence.
    WWF has worked in the forests of Central Africa with a focus on the 
Sangha Tri-National area of contiguous forests including northern 
Congo-Brazzaville, southwest CAR, and southeast Cameroon. WWF has 
supported the creation, development, and management of the Dzanga-
Sangha Dense Forest Special Reserve and the Dzanga-Ndoki National Park 
in the CAR, and of the Lobeke National park in southeastern Cameroon. 
WWF has a strong national program in Gabon focusing on Protected Areas 
Management and has worked with the Government on Gabon on the Minkebe 
Reserve in northeastern Gabon and the Gamba Complex for over 15 years. 
WWF has led the process of developing a trans-border landscape program 
centered on the Minkebe National Park, linking it to Dja, Boumba Bek 
and Nki Reserves in Cameroon and Odzala National Park in Congo (see 
Table 1: WWF's Presence in Landscapes). The WWF Ecoregion Program has 
collaborated with WCS to carry out the background surveys and studies 
that have led to the 13 new National Parks recently announced by the 
President of Gabon. WWF was instrumental in the development of the 
Central Africa World Heritage Forest Initiative (CAWHFI), supported by 
the United Nations Foundation and UNESCO, which seeks to increase the 
management effectiveness within three landscapes in the Congo Basin. 
These three landscapes, overlapping with CARPE/CBFP landscapes, are the 
Sangha Tri-National, the Gamba-Conckouati, and the Minkebe-Dja-Odzala 
landscapes. WWF, WCS, CI and the Jane Goodall Institute will jointly 
implement this program. Finally, WWF has played an instrumental role in 
the process leading to the adoption of the Plan de Convergence adopted 
by COMIFAC in December 2000, which includes a series of actions to be 
undertake to achieve the Yaounde Declaration.

Current WWF Presence in Central Africa
    WWF has a Central Africa Regional Program Office (CARPO) in 
Yaounde, Cameroon, an Ecoregional and Program Office in Libreville, 
Gabon, and Program Offices in DRC and in the CAR, reporting to WWF-
International in Switzerland. WWF-U.S. initiated the program in Central 
Africa and provides the principal technical and financial support to 
it, including all initiatives involving support from the United States, 
in particular, USAID. WWF Network funding for the region also comes 
from WWF-Netherlands, WWF-Belgium, WWF-International, WWF-UK, WWF-
Denmark and WWF-Germany.
    The WWF program for CARPE II is firmly rooting in the institutional 
context of the countries where it will operate. As such WWF has 
traditionally placed emphasis on working within the relevant 
institutional structures and on understanding their mechanisms of 
operation and weaknesses.
    Mr. Chairman, there is a saying in our Bantu language that says: 
``One finger can not pick up lice inside the hair,'' which means here 
that one organization alone can not achieve the goal of conservation in 
Central Africa.
    WWF's widespread partners and program activities in Central Africa 
are a reflection of this saying, along with the U.S. government 
commitment to the conservation of Congo Basin Forest. Over 20 years, 
WWF has established a network of regional program, and project offices 
in Gabon, Cameroon, and CAR to address conservation issues from the 
field. Such a field presence has allowed us to raise awareness of the 
important biodiversity in the Congo Basin, promote sustainable forest 
management and independent timber certification, and work towards 
establishing a network of protected areas which effectively protect 
forests as well as the people and animals which depend upon them. WWF's 
partners in these initiatives include governments, NGOs, local 
communities, international aid agencies and foundations, and the 
private sector.
    Despite all the scaling-up of the conservation approaches and 
central African governments' commitment, biodiversity loss is still 
increasing. If we want to win the race against biodiversity loss we 
need a new approach that more effectively not only integrates 
socioeconomic policies with environmental concerns but a partnership 
among the Conservation communities and northern and southern 
governments.
    Conservation is a truly complex undertaking that requires a wide 
range of people and organizations working together to achieve common 
goals.
    The most strategic relationship to have in order to achieve 
conservation is this consortium (which includes WWF, CI and WCS) built 
up on what USAID has set up through its CARPE program in the Central 
Africa region.

                    GRANT PROCEEDING IMPLEMENTATION

    The question that one would ask is how are these conservation 
organizations going to administer the grants and sub-contract with this 
complex partnership within a complex region?
    Firstly team arrangements have been carefully worked out over the 
last few months through a series of meetings in the U.S.A., and in the 
region (see Table 2: CBFP Overall Teaming and Sub-Contract Arrangements 
in Landscapes). The teams are based on competitive advantage and real 
field experience. These arrangements represent the best way to direct 
the functioning of the landscape conservation approach in these 
different landscapes. Close coordination will be needed to ensure that 
parallel methodologies are being used for the different parts of the 
program, and to allow reporting on the progress of the implementation 
of the programs at different landscapes. In all cases a landscape 
structure will be created to deliver components of the program in a way 
that they relate to the entire landscape and also to deliver the 
required reports to USAID. At a number of landscapes, WWF will issue 
sub-contracts to other USA-based NGOs such as Zoological Society of 
Milwaukee, Bonobo Conservation initiative, Innovation Resources 
Management. WWF also hopes to work with U.S. government agencies in the 
same landscapes, such as the Smithsonian Institution, USFWS, or USFS. 
These collaborators will complete specialist studies, such as surveys, 
measuring the area of remaining forest cover, etc, which are needed to 
deliver the different aspects of the program. Memorandum of 
Understanding will be written between WWF and the various agencies.
    Secondly, making grants to partners is not something new to the 
International NGOs that are the backbones of this Congo Basin 
Partnership. WWF and WCS have administered in Cameroon, Central African 
Republic and the Republic of Congo, NGO Action Grants with funding 
support from CARPE and the MacArthur Foundation. They sub-contracted 
and provided selected and motivated NGOs with resources to test and 
develop their capacity in field conservation. In each country selection 
criteria was established and a committee of local conservation and 
development experts was formed to review proposals and award grants.
    WWF is a founding member of the African Forest Action Network 
(AFAN), a multi-country network of African NGOs created in 1994. AFAN's 
purpose is to promote the conservation of forests and the sustainable 
use of forest resources, particularly for the well-being of the people. 
The network's activities focus on information exchange, advocacy, 
training, and facilitating cooperation among member NGOs. The MacArthur 
Foundation provided funding to support AFAN to develop and disseminate 
a quarterly newsletter and to provide training and technical assistance 
to its NGO members in advocacy and organizational development matters.
    Together, AFAN and the NGO Action Grants program contributed to the 
foundation necessary to develop NGOs as a relevant force in local and 
regional conservation in Central Africa. These programs also provide a 
vehicle through which to identify potential partners for WWF 
initiatives.
    Mr. Chairman, guests of honor, the last three years have seen years 
of dramatic change in Central African's perception of the importance of 
biodiversity conservation. With the technical assistance of 
conservation organizations such as WWF, WCS, CI and AWF, just to name 
these few, the countries in Central Africa have come up with a 
conservation strategy for this huge part of the African continent, 
inhabited by such diversity of people, cultures, traditions and 
political systems.
    This is an unprecedented moment for the Congo Basin. While the 
stars are aligned and along the US government's will to foster this 
partnership and bring in other partners, it is vital that we seize this 
opportunity to save the Congo Basin Forest. The Congo Basin Forest 
Partnership and the United States contribution came in at the right 
time, supporting the Central African governments' conservation strategy 
and their convergence plan. I believe that funds should be in support 
of all the countries across the entire region. This will keep all the 
countries encouraged to work together for the good cause of the 
biodiversity conservation.
    The only concern that I have, and I have been asking myself, is as 
follows: Is the three-year program enough to achieve the goals of the 
CBFP? When I consider the socio-economic problems that have hampered 
Central Africa and the greater number of people who still live in 
abject poverty, I say to myself if only potential partners could extend 
this program over a period of ten years, this will be very much 
appreciated. Since this is another education process that we are 
embarking on to bring the entire community to change their way of 
living and thinking, and adopt a new behavior.
    Mr. Chairman, NGO representatives and guests of honor, thank you 
very much for your attention.

                                                                                                                      Table 1.--WWF Presence in Landscapes
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
               Landscape Name                                                                                                                   Current Activities and Presence
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Gamba-Conkouati                                                                WWF has an established field presence at this landscape for over 15 years. This is an established and mature program and considerable further progress can be expected during the coming 3 years
Dja-Minkebe-Odzala (TRIDOM)                   WWF has an established field presence in Minkebe and Dja, built up over a number of years. For the past 2 years WWF has also been working with GEF, ECOFAC and COMIFAC on cross-border issues. Considerable landscape work can be
                                                                                                                                              expected in this area over the coming 3 years, including the development of a shared management structure across national borders


Sangha Tri-National (TNS)                          WWF has maintained a strong field presence in Cameroon and CAR for more than two decades and first conceived this trans-border program. For the past 2-3 years, WWF has been working with WCS in Congo to implement a shared
                                                                                                                                                   management structure for the entire area and considerable landscape level progress can be expected during the coming 3 years


Lac Tele-Lac Tumba                               WWF will establish a program at this site and will work with Bonobo Conservation Initiative and Innovative Resources Management to deliver aspects of the proposed work. WWF will carry out community based fisheries and fish
                                                                                                                                                           surveys in this landscape, and will also assist WCS with the overall landscape measurement components of the program


Salonga-Lukenie-Sankur                        WWF will work with WCS to operationalize a large program at this important landscape, building on past work and field reconnaissance over the past months. Parts of the program will also be implemented by the Zoological Society
                                                                                                                                             of Milwaukee, who is present in the field, partially supported by WWF. WWF will collaborate with the UNESCO World Heritage Program


Monte Alen-Mont de Cristal                                                                                        Mont de Cristal is close to the Minkebe Forest and WWF will reinforce its current operation in the area, in particular for bushmeat control and anti-poaching


Maringa-Lopori-Wamba                                                             WWF supported bonobo research and conservation in this area for many years and will re-launch this effort partnering with Zoological Society of Milwaukee to deliver the proposed work at the Lomako landscape component
Maiko-Lutunguru Tayna-Kahuzi Biega                                                                                    Building on the past work that it has conducted in the area, WWF will collaborate with GTZ and UNESCO/WHP to deliver the Kahuzi Biega landscape component
--------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


             Table 2.--Partnership Overall Teaming and Sub-Contract Arrangements in the Landscapes.
----------------------------------------------------------------------------------------------------------------
                                                                               Lead
                                                                           Organization   Secondary/   WWF  Sub-
         Landscape                Lead       Countries in     Landscape          in        Terciary    Contracts
                              Organization     Landscape      Component      Landscape   Involvement     with
                                                                             Component
----------------------------------------------------------------------------------------------------------------
1  Monte Alen-Mont de        CI
 Cristal Inselbergs
                                                Equatorial      Monte      CI
                                             Guinea          Alen
                                                Gabon           Mont de    WCS           WWF/CI
                                                             Cristal
----------------------------------------------------------------------------------------------------------------
2  Gamba-Conckouati          WWF
                                                Gabon           Gamba-May  WWF           WCS/CI
                                                             omba
                                                Congo           Conckouat  WCS
                                                             i
----------------------------------------------------------------------------------------------------------------
3  Lope-Chaillu-Louesse      WCS
                                                Gabon           Lope       WCS
                                                             Chaillu
                                                Congo           Louesse    WCS
----------------------------------------------------------------------------------------------------------------
4  Dja-Minkebe-Odzala Tri-   WWF
 National
                                                Cameroon        Dja        WWF
                                                Congo           Odzala     WCS           WWF/CI
                                                Gabon           Minkebe    WWF
                                                Gabon           Mwagne     WWF
                                                Gabon           Ivindo     WCS
----------------------------------------------------------------------------------------------------------------
5  Sangha Tri-National       WWF
                                                Cameroon        Lobeke     WWF
                                                CAR             Dzanga     WWF           WCS
                                                             Sangha
                                                Congo           Nouabale   WCS
                                                             Ndoki
----------------------------------------------------------------------------------------------------------------
6  Bateke Plateau            WCS
                                                Gabon           Bateke     WCS
                                                Congo           Lefini     WCS
----------------------------------------------------------------------------------------------------------------

7  Lac Tele-Lac Tumba        WWF
                                                  Congo         Lac Tele   WCS
                                                  DRC           Lac Tumba  WWF                        BCI, IRM
----------------------------------------------------------------------------------------------------------------
8  Salonga-Lukenie-Sankur    WWF
                                                  DRC           Salonga    WWF           WCS          ZSM
----------------------------------------------------------------------------------------------------------------
9  Maringa/Lopori-Wamba      AWF
                                                  DRC           Maringa/   AWF           CI
                                                             Lopori
                                                  DRC           Wamba      AWF
                                                  DRC           Lomako     WWF                        ZSM
----------------------------------------------------------------------------------------------------------------
10  Maiko-Lutunguru Tayna-   CI
 Kahuzi Biega
                                                  DRC           Itwombe    CI            WCS
                                                  DRC           Maiko      CI            WCS
                                                  DRC           Kahuzi     WWF           WCS
                                                             Biega
                                                  DRC           Taina      ............
----------------------------------------------------------------------------------------------------------------
11  Ituru-Epulu-Aru          WCS
                                                  DRC           Ituri      WCS
                                                             Epulu Aru
----------------------------------------------------------------------------------------------------------------
Notes: ZSM = Zoological Society of Milwaukee, BCI = Bonobo Conservation Initiative; IRM = Innovative Resources
  Management

    Senator Alexander.  Thank you very much, Mr. Mokombo.
    Mr. Mokombo. Sorry to be so long.
    Senator Alexander.  Let me ask this general question. Dr. 
Fay, you have as broad a view of all this as anybody. As you 
look ahead the next couple of years, what are the two or three 
most important things that you would like to see accomplished 
in the next 2 or 3 years?
    Dr. Fay. We need to consolidate this partnership. I think 
that is extremely important.
    Senator Alexander.  How do you mean? How do you mean that?
    Dr. Fay. The resources that are being brought to bear by 
the U.S. Government are going to be insufficient to do what we 
have set out to do, and that is why this partnership was 
created. But this contribution from other nations, especially 
the EU and their member states, some of the Asian nations, 
Japan, somebody mentioned Australia, Canada, various other 
nations around the world, have to be brought in and, like the 
NGO's have done on the U.S. side, figure out exactly what role 
they play and what piece of the puzzle they can help with.
    We have to use this partnership to figure that out on a 
more general basis.
    Senator Alexander.  Is there any other--do one or two other 
nations stick out as more interested than others right now?
    Dr. Fay. Well, certainly the EU is extremely active in the 
area and has been collaborating with all the partners for a 
long time. But there is not yet a coherent kind of strategy 
that is a unified one; that is very, very important, not only 
for the action on the ground but for that kind of groundswell, 
sending a clear message that is a unified one.
    We need to reinforce the notion in Central African 
countries that this is going to be a nuts and bolts operation; 
this is not going to be more fluff. A lot of conservation is 
about fluff; a lot of African nations accept it, but they think 
it is more fluff. This is an effort, and it has been right from 
the beginning, to say, no guys, this is a ground-based, ground-
up nuts and bolts operation. Let us get the job done on the 
ground. It will trickle up every day of the week all day.
    People on the ground are going to start saying that this is 
what we are talking about. One of the ministers in Paris said 
something about not wanting budget-devouring projects, which 
means projects that just eat budgets, and we have seen a lot of 
those. I think it is extremely important, and the CBFP has been 
good about making the focus remain on the landscapes. But I 
think we just have to keep beating that thing and say we really 
do need to keep it on the ground.
    We have to remain focused on building infrastructure, on 
training management personnel, and integrating local people. 
That is the key. If we do that we can create a new ethos in 
these countries. Even a country as vast and as varied as the 
DRC, will experience a very telling impact.
    People are talking about Ituri, for instance, and we have 
seen all the warfare going on out there, the chaos. It is all 
about resources. People from Rwanda and Burundi and eastern DRC 
are moving west. Why are they doing it? It is not because they 
hate those people. It is not because they like to be at war. It 
is because they are looking for resources.
    When you think about a ground-up resource management 
project working out there with resources that they need, that 
whole scenario could shift very quickly, and I really believe 
that. I do not think that is pie in the sky. I really think it 
is reality.
    In northern Congo, when we had a major civil war in 1997, 
like Tony says, we stuck it out, and we absolutely had a major 
impact on stability in that area, over a vast area. We calmed 
people down. We got people to think about getting back to the 
villages and carrying on with their lives, and that is what 
happened. It is a far-reaching thing.
    One thing I would like to mention that I forgot is there is 
some kind of restriction over at USAID that is saying that we 
are not going to be allowed to build infrastructure with the 
CBFP funding. I am not sure if that sticks today, but that is 
something--I have been in the wilds of Gabon for the last 
several months, so I have not really gotten the details.
    Senator Alexander. What kind of infrastructure?
    Dr. Fay. Park headquarters, out camps, training centers, 
things like that are desperately needed in the field. Part of 
what we do, a very important part of what we do, is providing 
infrastructure for national parks and for management in these 
areas. If we cannot do that, I think it takes a lot of the wind 
out of the sails. Something that is very important in Africa is 
brick and mortar. If they see the brick and mortar, they think, 
okay, these guys are serious. And if we come in there and say, 
sorry guys, we cannot do that, that is going to be a major 
impediment. I do not think it would be that difficult to get 
that restriction lifted.
    Senator Alexander.  Well, we will work on that. What else 
can we do to be helpful? What else could the committee do right 
now to help you or Mr. Mokombo?
    Dr. Fay. Making sure that these resources do not get--do 
not leak into grandiose research programs and programs that are 
going to give us some kind of diffuse impact that we talk 
about. Again, we have got to just keep it on the ground and 
just make sure that what we have promised ourselves, 
landscapes, national parks, personnel, local people, keep 
hammering at that.
    That is a relatively easy thing to do, to make sure that 
happens. If we do not make sure that it happens, we are going 
to be talking about A to Z, we are going to be talking about 
from ground all the way up to outer space, and we are going to 
be thinking mostly about outer space. I think that the ground 
is extremely important. We need to keep that focus.
    Senator Alexander.  What kind of resources? We heard Mr. 
Mokombo talk a little bit about the Central African Republic 
and the effect this has had in his country. What kind of 
resources are the government of Gabon putting into the effort?
    Dr. Fay. Tony, myself, and Richard Carroll, who is sitting 
in the back, all started 20-some years ago working in the place 
that Tony is talking about, Dzanga-Sangha. WWF has been there 
all day every day for the past 15 years and it has made a 
dramatic impact on the way forest resources in southwestern 
Central African Republic have unfolded.
    The governments have been contributing as much as they 
contribute and probably a lot more than they do in many other 
domains. So for instance, right now, where I am working in 
Gabon, Loango National Park, the government has a significant 
number of personnel working on the ground. Those personnel are 
not necessarily effective. They do not necessarily use the 
means that they have at their disposal effectively. They do not 
necessarily have the training or especially the skills that 
they need to really get down and just get the job done in these 
protected areas.
    They have got the theoretical training, most of them. But 
when you get right down to the level of, okay, what do we need 
to do, guys, there is a fishing boat out there, how are we 
going to get those guys back to the legal limit. Over time 
these governments are putting more and more in, but I really do 
not believe that we are going to be able to convince them to 
take over this program in 3 years. There is no way.
    WWF, WCS, all these organizations, are not really even 
thinking about leaving this area. I mean, it would be like 
saying the Sierra Club in the United States is going to wrap up 
operations in the next 3 years, because local governments and 
national government are going to take care of it. That is not 
our mentality. Our mentality is stick to it forever. What is 
wrong with that?
    Whatever happens, U.S. Government investment in this domain 
will pay off handsomely. If you look at Liberia, which was 
another subject we talked about earlier today, and you look at 
the turmoil that has unfolded there in the last 10, 15 years, 
in my domain what did we talk about there?
    We talked about the logging companies that evolved into 
money-laundering operations from the Middle East in Liberia. I 
will not point my finger at anyone, but there has been a lot of 
talk about using Liberia as a base much like Afghanistan was 
being used, not so much for training or whatever, but as a 
center for moving money, for instance, and various other 
things.
    If we had brought transparency and had worked with the 
Liberian government in the logging domain over the past 15 
years and invested even hundreds of millions of dollars in that 
domain, we may have saved billions in peacekeeping. I don't 
know, but I think that these investments, we cannot regard them 
as short-term where the governments are going to take over. We 
have to look at these as long-term investments that will save 
the West large amounts of money in the medium term.
    Senator Alexander.  Well, we are grateful for what you, Dr. 
Fay, and you, Mr. Mokombo, have done over the years. The 
purpose of this hearing today, as I mentioned earlier, is to 
put a spotlight on that work and to provide you an opportunity 
to submit, both through your testimony and through any 
additional statements you would like to get in within the next 
few days, ways that the United States Congress can be helpful 
to the State Department and the USAID as we move forward with 
this.
    Our subcommittee will continue to have an interest in the 
basin and this partnership, and we will be looking for ways to 
help it
succeed.
    Mr. Mokombo, did you have any other comment you would like 
to make?
    Mr. Mokombo. I just wanted to add that we are actually 
embarking on an education process for my peers in the region, 
to bring them or the entire community to change their ways of 
living and thinking and adopting new behavior. This is going to 
take time there, time and persistence. So your having a long-
term horizon vision will be very much appreciated.
    Senator Alexander.  We will look forward to additional 
hearings on this subject and visits in Africa to try to see 
that the United States' participation is as effective as it can 
be.
    I want to thank you, Mr. Mokombo, for being here. Dr. Fay, 
thank you for coming such a long distance.
    Dr. Fay. Thanks for having me.
    Senator Alexander.  And thank you for your work.
    Mr. Mokombo. Thank you, too, and you have my invitation to 
visit Gamba. There is a beach in Gamba where all the animals 
come for sunshine. It is awesome. So you have got my invitation 
for that. The members are also invited.
    Senator Alexander.  Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 11:09 a.m., the subcommittee was adjourned.]


</pre></body></html>
